        "Taxes are what we pay
         for civilized society . . .
       A penalty on the other hand
     is intended altogether to prevent
          the thing punished."




      Oliver Wendell Holmes Jr.




ii                                     April 1, 2005 to September 30, 2005
                                                                          Table of Contents


     Inspector General’s Message to Congress .......................................................................... 1

     TIGTA’s Profile and Highlights .................................................................................................. 3
             Statutory Mandate ..................................................................................................................         3
             Organizational Structure ........................................................................................................            4
             Authorities ..............................................................................................................................   4
             TIGTA Highlights ..................................................................................................................          5

     Promote the Economy, Efficiency, and Effectiveness of Tax Administration .............. 7
             Systems Modernization .......................................................................................................... 7
             Tax Compliance Initiatives .................................................................................................... 10
             Security of the IRS ................................................................................................................. 12
             Integrating Performance and Financial Management ............................................................ 12
             Providing Quality Customer Service Operations ................................................................... 13
             Erroneous Payments ............................................................................................................... 15
             Processing Returns and Implementing Tax Law Changes .................................................... 17
             Taxpayer Protection and Rights ............................................................................................. 19
             Human Capital ....................................................................................................................... 20

     Protect the Integrity of Tax Administration ........................................................................... 23
             Employee Integrity ................................................................................................................. 25
             Employee and Infrastructure Security .................................................................................... 27
             External Attempts to Corrupt Tax Administration ................................................................ 29

     Congressional Testimony .......................................................................................................... 34

     Special Achievements ................................................................................................................ 37

     Audit Statistical Reports ............................................................................................................ 38
             Reports With Questioned Costs ............................................................................................. 38
             Reports With Recommendations That Funds Be Put To Better Use ..................................... 39
             Reports With Additional Quantifiable Impact On Tax Administration ................................. 40

     Investigations Statistical Reports ........................................................................................... 42
             Complaints/Allegations Received by TIGTA ........................................................................ 42
             Status of Complaints/Allegations Received by TIGTA ......................................................... 42



April 1, 2005 to September 30, 2005                                                                                                                           iii
             Investigations Opened and Closed ......................................................................................... 42
             Financial Accomplishments ................................................................................................... 42
             Status of Closed Criminal Investigations ............................................................................... 43
             Criminal Dispositions ............................................................................................................ 43
             Administrative Disposition on Closed TIGTA Investigations ............................................... 43



     Appendices

     Appendix I - Statistical Reports – Other ................................................................................ 45
             Audit Reports With Significant Unimplemented Corrective Actions .................................... 45
             Other Statistical Reports ........................................................................................................ 53

     Appendix II - Audit Products ..................................................................................................... 55
             April 1, 2005 - September 30, 2005 ................................................................................... 55

     Appendix III – TIGTA’s Statutory Reporting Requirements .............................................. 61

     Appendix IV - Section 1203 Standards ................................................................................. 67

     Appendix V - Data Tables Provided by the IRS (Employee Misconduct Reports) ....... 69
             IRS Memorandum .................................................................................................................. 69
             Report of Employee Misconduct for the Period 4/01/05 - 9/30/05
             Summary by Disposition Groups ........................................................................................... 70
             Report of Employee Misconduct for the Period 4/01/05 - 9/30/05
             National Summary ................................................................................................................. 71
             Summary of Substantiated §1203 Allegations Recorded in ALERTS
             for the Period 4/01/05 - 9/30/05 ............................................................................................. 72




iv                                                                                                   April 1, 2005 to September 30, 2005
                                         Inspector General’s
                                        Message to Congress

     I  am pleased to submit the Treasury Inspector General for Tax Administration (TIGTA)
        Semiannual Report to Congress. TIGTA is one of the largest and most complex Inspector
     General operations in the Federal Government. TIGTA protects and promotes the fair
     administration of our Federal tax system. By doing so, it plays a critical role in ensuring the
     Internal Revenue Service (IRS) remains accountable for its actions. This report covers our
     work from April 1, 2005 to September 30, 2005.

     When I arrived at TIGTA last December, there were many issues facing the IRS, several of
     which are addressed in this report; however, I identified four primary priority areas; 1) IRS’
     efforts to modernize technology; 2) TIGTA’s ability to protect tax administration from
     corruption; 3) IRS’ efforts to improve tax compliance; and, 4) IRS’ use of private debt collection
     agencies. TIGTA’s commitment to addressing these critical areas is summarized below:

     IRS’ Efforts to Modernize Technology - Modernizing the IRS’ computer systems has been a
     persistent challenge for many years, and will likely remain a challenge for the foreseeable
     future. Through March 2005, the IRS has received appropriations of approximately
     $1.9 billion to support the Business Systems Modernization (BSM) program, and the
     Fiscal Year 2006 budget requested an additional $199 million. It is estimated that the BSM
     program will last up to 15 years and cost more than $8 billion. Although progress is being
     made, the modernization program is behind schedule, over budget, and is delivering less
     functionality than originally planned. The IRS must demonstrate that it can effectively manage
     the BSM program before the program’s chances for success improve. TIGTA will continue to
     assess the IRS’ efforts at managing the risks involved in this significant area.

     Protecting Tax Administration from Corruption - Corruption jeopardizes faith in the tax
     administration system, therefore, it must be eliminated to protect the IRS, its employees, and
     facilities. The goal of TIGTA’s investigations is to produce high quality products that promote
     IRS employee integrity, protect IRS employees and infrastructure, and defend the IRS against
     external attempts to corrupt tax administration. During this semiannual reporting period,
     TIGTA received 4,183 complaints of alleged criminal wrongdoing or administrative
     misconduct, opened 1,813 investigations, and closed 1,814 cases. TIGTA will continue to be
     diligent in conducting investigations and protecting the integrity of tax administration.

     Improving Tax Compliance Initiatives – The IRS continues to face challenges in ensuring that
     taxes owed are paid on time. The importance of this issue cannot be overstated. The nation’s
     ability to provide for the general welfare and protection of its citizens is based on the ability to



April 1, 2005 to September 30, 2005                                                                         1
    raise revenue through taxes. The widely recognized tax gap, which consists of the amount of
    taxes that are owed but not collected each year, is at a staggering level and threatens the
    integrity of the voluntary tax system. In the most recently updated estimate of the tax gap,
    released March 29, 2005, and developed for Tax Year 2001, the IRS estimates the annual gross
    tax gap to be between $312 billion and $353 billion. Audit and investigative work in this area
    continues to address the vulnerabilities at the IRS that contribute to the tax gap, and to identify
    opportunities and recommendations for improvement.

    Use of Private Debt Collection Agencies – The passage of the American Jobs Creation Act
    of 2004 cleared the path for the IRS to initiate a delinquent tax debt collection effort through
    the use of private contractors. This is an important and highly visible initiative requiring
    TIGTA’s oversight throughout the process. When fully implemented the IRS intends to have
    up to 12 private contractors handling delinquent tax debt collection cases. The Department of
    the Treasury estimated that the Federal Government could receive approximately $1.4 billion
    over the next 10 years from this program. While the use of private collection agencies could
    result in significant recoveries of unpaid taxes, the potential for abuse of taxpayers’ rights
    exists. Private debt collectors who abuse their authority while collecting taxes will be
    investigated, and appropriate civil and criminal sanctions will be imposed as warranted.
    TIGTA plays a key role in ensuring that the IRS utilizes this new authority effectively, while
    ensuring that taxpayers’ due process and privacy rights are protected.

    In addition to our four priority areas, TIGTA continues to pursue oversight activities in areas
    such as the security of IRS employees, facilities, and information systems; the prevention of
    erroneous and improper payments by the IRS; the IRS’ processing of tax returns and
    implementation of tax law changes; customer service; and the integration of performance and
    financial management at the IRS, to name a few. These are all important oversight activities
    that we pursue vigilantly. We are committed to helping the IRS overcome current and future
    challenges to ensure that the collection of tax revenue is done with efficiency, effectiveness,
    and integrity.



                                                Sincerely,


                                            J. Russell George
                                            Inspector General




2                                                                      April 1, 2005 to September 30, 2005
                                                      TIGTA's Profile
                                                      and Highlights


     T    he Treasury Inspector General for Tax
          Administration (TIGTA) provides
     independent oversight of Treasury
                                                      TIGTA conducts audits and investigations
                                                      designed to:
                                                      •     Promote the economy, efficiency, and
     Department matters involving IRS
                                                            effectiveness of tax administration; and,
     activities, the IRS Oversight Board, and
     the IRS Office of Chief Counsel. Although        •     Protect the integrity of tax
     we are placed organizationally in the                  administration.
     Treasury Departmental Offices and report to
     the Secretary of the Treasury and to
     Congress, we function independently from
     the Departmental Offices and all other                  TIGTA’s Statutory Mandate
     offices and bureaus within the Department.           Protect against external attempts to
                                                           corrupt or threaten IRS employees.
     Our work is devoted to all aspects of                Provide policy direction and conduct,
     activity related to the Federal tax system as        supervise, and coordinate audits and
     administered by the IRS. By identifying              investigations related to IRS programs
     and addressing the IRS’ management                   and operations.
     challenges, implementing the President’s             Review existing and proposed legislation
     Management Agenda and the priorities of              and regulations related to IRS programs
                                                          and operations and make
     the Department of the Treasury, and                  recommendations concerning the impact
     overseeing the IRS as it strives to achieve          of such legislation or regulations.
     its strategic goals, we protect the public’s         Promote economy and efficiency in the
     confidence in the tax system.                        administration of tax laws.
                                                          Prevent and detect fraud and abuse in
     Our primary functional offices are the               IRS programs and operations.
     Office of Audit (OA) and the Office of               Inform the Secretary of the Treasury
     Investigations (OI). Our Offices of Chief             and Congress of problems and
     Counsel, Information Technology, and                  deficiencies identified and of the
     Management Services support OA and OI                 progress made in resolving them.
     efforts (see organizational chart, next page).




April 1, 2005 to September 30, 2005                                                                     3
                .

    TIGTA’s Organizational Structure




                                                    Inspector General




                               Chief Counsel




                         Deputy Inspector General                     Deputy Inspector General
                                 for Audit                               for Investigations



                                 Assistant                                     Assistant
                             Inspector General                             Inspector General
                         for Management Services                      for Information Technology




     Authorities

     TIGTA has all the authorities granted under              under the internal revenue laws. In
     the Inspector General Act of 1978, as                    addition, the IRS Restructuring and Reform
     amended.1 TIGTA also has access to tax                   Act of 1998 (RRA 98)2 amended the
     information in the performance of its tax                Inspector General Act of 1978 to give
     administration responsibilities and the                  TIGTA statutory authority to carry
     obligation to report potential criminal                  firearms, execute and serve search and
     violations directly to the Department of                 arrest warrants, serve subpoenas and
     Justice. TIGTA and the Commissioner of                   summonses, and make arrests as set forth in
     Internal Revenue have established policies               Section 7608(b)(2) of the Internal Revenue
     and procedures delineating responsibilities              Code (I.R.C.).
     to investigate potential criminal offenses


                                                              2
                                                                  Public Law No. 105-206, 112 Stat. 685 (codified as
                                                                  amended in scattered sections of 2 U.S.C., 5 U.S.C.
                                                                  app., 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C.,
     1
         5 U.S.C.A. app. 3 (West Supp. 2004).                     26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).




4                                                                              April 1, 2005 to September 30, 2005
                                                                                               TIGTA Highlights



                                                                                                                  Statistics


     The following table shows TIGTA’s statistical highlights for this semiannual reporting period
     as well as all of Fiscal Year 2005.

                                                                TIGTA’s Fiscal Year 2005 Accomplishments
                          Number of        Cost          Increased/           No. of          No. of          Regulations/
                         Audit Reports    Savings         Protected       Investigations   Investigations      Legislative
                         Completed       Identified       Revenue            Opened           Closed        Requests Reviewed
      FY 2005                180         $46.7 million   $83.3 billion        3,513            3,468              287
      April 1, 2005 to
      Sept. 30, 2005         121         $18.4 million   $71.3 billion        1,813            1,814              156




                                                                         TIGTA: One of the Best Places to Work

     Once again, TIGTA ranks as one of the “Best Places to Work in the Federal Government.” The
     ranking is based on the 2004 Office of Personnel Management Federal Human Capital Survey.
     TIGTA ranked in the top 15 percent of the 218 surveyed Federal subagencies (which includes
     small and independent agencies). TIGTA received 1st place rankings in two categories, Pay and
     Benefits, and Work/Life Balance. Please visit the Web site at http://www.bestplacestowork.org/
     for more details.




April 1, 2005 - September 30, 2005                                                                                              5
     "…Natural rights, so called,
    are as much subject to taxation
    as rights of less importance."




       Benjamin N. Cardozo




6                                April 1, 2005 to September 30, 2005
                                               Promote the
                                        Economy, Efficiency
                                          and Effectiveness
                                      of Tax Administration

     T    IGTA’s Office of Audit strives to
          promote the economy, efficiency, and
     effectiveness of tax administration. We
                                                      IRS’ Major Management Challenges
                                                        •   Systems Modernization
     provide audit recommendations to improve           •   Tax Compliance Initiatives
     IRS systems and operations, while ensuring         •   Security of the IRS
     fair and equitable treatment of taxpayers.         •   Integrating Performance and
                                                            Financial Management
     Our comprehensive, independent                     •   Complexity of the Tax Law
     performance and financial audits of IRS            •   Providing Quality Customer
     programs and operations focus on                       Service Operations
     mandated reviews and high-risk                     •   Erroneous and Improper Payments
     challenges facing the IRS.                         •   Processing Returns and
                                                            Implementing Tax Law Changes
                                                        •   Taxpayer Protection and Rights
     The IRS’ implementation of audit                   •   Human Capital
     recommendations results in cost savings
     and increased or protected revenue,
     reduction of taxpayer burden, and              The following audit summaries highlight
     protection of: taxpayer rights and             significant audits completed during this
     entitlements; taxpayer privacy and security;   six-month reporting period and fall into the
     and IRS resources.                             IRS’ Major Management Challenges categories.


     Each year, we identify and address the         Systems Modernization
     major management challenges facing the
     IRS. Audit emphasis is placed on statutory     The IRS and its contractors have deployed
     coverage required by RRA 98, as well as on     much anticipated Business Systems
     areas of concern to Congress, the Secretary    Modernization (BSM) projects with the
     of the Treasury, the Commissioner of           infrastructure needed to support them. In
     Internal Revenue, and other key                addition, the IRS has developed an
     stakeholders. The challenge areas for          Enterprise Architecture that includes all
     Fiscal Year (FY) 2005 are outlined in the      IRS business units, processes, programs,
     following chart:                               and operations, and provides details to




April 1, 2005 to September 30, 2005                                                                7
    help guide current and future modernization           In January 2005, the IRS began taking over
    initiatives. The BSM Program has also                 the role of systems integrator from the
    taken steps to improve its management                 PRIME contractor due to reductions in
    processes.                                            funding by Congress for the BSM Program
                                                          and concerns about the PRIME contractor’s
                                                          performance.
                BSM Program Synopsis
         The BSM Program is a complex effort to           TIGTA’s annual BSM Program
         modernize the IRS’ technology and related        assessments continue to cite four primary
         business processes. According to IRS             challenges the IRS and its contractors must
         estimates, this $8 billion effort will involve   meet to achieve Program success. They are:
         integrating thousands of hardware and
         software components over 15 years. The
         Program is in its seventh year and has           1) implement planned improvements in
         allocated approximately $1.9 billion for            key management processes and commit
         contractor and integrator activities.               resources to enable success;
         Additionally, the IRS has provided               2) manage the increasing complexity and
         $213 million in funding to the Business
         Systems Modernization Office (BSMO)
                                                             risks of the Program;
         since FY 1999.                                   3) maintain continuity of strategic direction
                                                             with experienced leadership; and,
                                                          4) ensure contractor performance and
    Since its inception, the Program has                     accountability are effectively managed.
    experienced management problems at both
    the program and project levels, as well as            Although the IRS has taken a number of
    problems between the IRS and the                      actions in response to TIGTA’s
    PRIME contractor.3                                    recommendations, recent findings show
                                                          these four challenges remain.
    Weaknesses continue to exist in
    requirements management, contract                     The IRS agreed that it has a lot of work
    management, software testing, and security            ahead on the Program and cited progress in
    controls. As a result, BSM project                    four key areas that align with the four
    accomplishments did not include all                   primary challenges. The ongoing issues
    intended capabilities, were not delivered on          will be balancing the scope and pace of
    schedule, and exceeded proposed costs.                projects consistent with capacity, ensuring
    IRS management advised these changes                  the right people are in place before
    were caused by factors outside their control,         launching a project, and setting realistic
    such as additional requirements and                   delivery schedules and cost estimates.
    Congressional delays in passing legislation.          Report Reference No. 2005-20-102

                                                          The IRS has a unique opportunity during
    3
                                                          BSM efforts to develop and integrate
         The PRIME contractor is the Computer Sciences    adequate security controls effectively and
        Corporation, which heads an alliance of leading
        technology companies that assist the IRS in       efficiently. However, the IRS did not
        modernizing its computer systems and related      adequately consider security controls in the
        information technology.                           development phase for the five systems



8                                                                      April 1, 2005 to September 30, 2005
     TIGTA reviewed. In addition,                   IRS’ modernization program. It will enable
     documentation required in the development      the development of subsequent modernized
     phase provided only general or outdated        systems to improve customer service and
     descriptions of security requirements and      compliance. The CADE will be
     controls. Because many of its core systems     implemented in a series of releases over
     are being rebuilt, security controls should    several years, while, concurrently, the older
     be provided during the development phase       Master File system will be phased out.
     and tested during the integration phase of
     modernization projects.                        Tax Year (TY) 2004 return information was
                                                    accurately and timely posted to CADE
     Waiting until after implementation to          accounts. The IRS issued accurate refunds
     address security weaknesses will most          faster for those returns posted to the CADE
     likely cost significantly more and could       than those posted to the Master File. The
     result in system exploitation by               IRS also provided accurate refund
     unauthorized individuals or personnel. The     information on these returns through its
     lack of disaster recovery planning in the      automated telephone service and its Web
     development phase could unnecessarily          site. When tax returns did not meet CADE
     prolong the recovery from a natural disaster   criteria, the account information was
     or terrorist attack. TIGTA believes the        accurately transferred to the Master File.
     PRIME contractor focused on delivering         However, TIGTA identified employee
     systems that would function, but did not       actions that, coupled with CADE
     provide enough emphasis on security            restrictions, caused accounts to be
     controls. In addition, the IRS was not         unnecessarily moved from the CADE to the
     sufficiently involved in the early             Master File. The IRS immediately issued
     development stages of the systems to           instructions to minimize these actions.
     ensure that the PRIME contractor
     developed security controls in compliance      The successful implementation of the first
     with IRS standards.                            two CADE releases is a noteworthy
                                                    achievement, which includes accurate
     TIGTA recommended that the IRS ensure          account postings, automated telephone and
     coordination between it and the PRIME          Web site service, and faster refunds. There
     contractor and revise guidance to require      is much to be done, however, and
     disaster recovery planning in the              expanding the CADE will become more
     development phase of the system life cycle.    challenging as the IRS adds capabilities to
     The IRS should also ensure that audit trail    handle more complex tax returns.
     data are retained and reviewed to detect       Report Reference No. 2005-40-109
     unauthorized accesses. The IRS agreed
     with most of the recommendations and is
     taking action to address the conditions.       TIGTA reviewed four business cases for
     Report Reference No. 2005-20-128               Budget Years (BY) 2005 and 2006 and
                                                    noted that all four business cases contained
     The Customer Account Data Engine               deficiencies; none of the four were in
     (CADE) is a critical building block in the     compliance with Office of Management and




April 1, 2005 to September 30, 2005                                                                 9
     Budget (OMB) and Clinger-Cohen Act4                     Tax Compliance Initiatives
     requirements; and, in some instances, the
     business cases did not comply with the IRS’             The IRS recognized that underreporters
     Exhibit 300 Business Case Guide. As a                   account for the largest portion of the tax
     result, senior IRS executives and                       gap.6 As a result, the IRS developed an
     Department of the Treasury and OMB                      extensive Employment Tax Strategy that
     officials should not rely on the data in these          addresses many facets of employment
     business cases to manage and fund projects.             tax compliance. The seven-pronged
                                                             approach includes Tip Income, Non-Filers,
     The IRS prepares about 30 business cases                Workload Identification, Collection,
     each year to support funding for its major              Legislative Initiatives, Education, and
     Information Technology (IT) investments.                Reporting Compliance.7
     To make business cases more reliable and
     useful, the IRS should ensure existing                  However, while approximately two-thirds
     guidance is followed in computing costs for             of the Federal Government’s revenue
     IT projects and work performed by                       receipts are reported on Forms 941
     contractors is adequately reviewed before               (Employer’s Quarterly Federal Tax Return),
     acceptance. In addition, the IRS should                 the IRS has not evaluated the extent of tax
     require a comprehensive evaluation of all               underreporting on these forms for at least
     vendor proposals and an assessment of                   15 years. Currently, according to the IRS,
     three viable alternatives for IT investments.           there are 720,612 Forms 941 nationwide
     The IRS should also hold IT Project                     that do not balance with the Forms W-2
     Managers accountable to ensure that all                 data for TY 2003. These inaccuracies
     sections of a business case are consistent,             could represent significant amounts of
     accurate, and complete, and correct all                 unpaid tax as the table below illustrates.
     software problems that lead to incorrect
     earned value5 calculations. The IRS agreed              Results of Employment Tax Forms
     with these recommendations and has taken                When Reviewed
     action to change its BY 2007 submissions.                   IRS Function    Year
                                                                                           Returns  Additional
     Report Reference No. 2005-20-074                                                     Reviewed Tax Assessed
                                                             CAWR               TY 2002     58,416     $905,249,357
                                                             EXAMINATION        FY 2004     17,698     $422,264,000
                                                             Source: The Combined Annual Wage Reporting (CAWR)
                                                             program is an IRS program that helps the Social Security
                                                             Administration ensure all workers get credit for the wages
                                                             they earn towards retirement benefits. Additionally this
                                                             program can be used to identify unreported and unpaid tax.

     4
        Pub. L. No. 104-106, 110 Stat. 642 (codified in      TIGTA recommended that the IRS develop
       scattered sections of 5 U.S.C., 5 U.S.C. app., 10     methodologies within the Employment Tax
       U.S.C., 16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C.,
       29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41
       U.S.C., 44 U.S.C., 49 U.S.C., 50 U.S.C.).
     5                                                       6
        Earned value management is a method of analysis         The tax gap includes nonfilers, underreporters of
       that provides management with an objective              tax, and underpayers of tax.
                                                             7
       measurement of how well an IT investment in the          Reporting compliance can be measured by
       development stage is progressing in terms of            comparing the tax reported by a taxpayer with what
       planned costs and schedule.                             should be reported.




10                                                                          April 1, 2005 to September 30, 2005
     Strategy to evaluate the extent of            The IRS estimates it will achieve
     underreporting by employers. IRS              approximately $1.17 billion in additional
     management agreed with the                    revenues if additional funding for its
     recommendation and is taking steps to         proposed FY 2006 enforcement initiatives
     evaluate the extent of the problem.           is approved. This would equate to a
     Report Reference No. 2005-30-126              4.4 to 1 return on the additional investment
                                                   when the employees become fully
     The IRS has not used State tax amnesty        productive in FY 2008. IRS officials
     information as an ongoing tool to help        believe the 4.4 to 1 return on investment is
     ensure compliance with Federal tax laws.      a conservative estimate, but TIGTA’s
     As a result, it is missing a unique           analysis indicates the estimate may be too
     opportunity to address noncompliant           high. IRS revenue projections were based
     taxpayers who have acknowledged their         on historical averages that weighted data
     noncompliance with tax laws to State          equally from years when IRS priorities and
     governments and who also may owe              technology were substantially different than
     Federal taxes. Although an IRS study          in recent years. In addition, business units
     included considerable analysis of tax         did not always provide specific information
     amnesty data for individual taxpayers from    to correlate revenue projections to the goals
     two states, it did not fully explore the      of the initiatives.
     benefits of this information and its
     usefulness in IRS compliance programs.        Furthermore, the IRS currently does not
                                                   have a methodology to measure revenue
     Tax amnesty programs are designed to          resulting from any adopted initiatives, such
     collect taxes owed from prior years and       as the results of increased investment in
     place those who previously avoided            enforcement activities. The absence of
     taxation on the tax rolls. Over the past      such a measurement limits the IRS’
     23 years, at least 41 states and two cities   estimating ability to assist in budgeting and
     have collected more than $5.7 billion from    resource allocation.
     tax amnesty programs. To encourage
     taxpayers to participate, these programs      TIGTA recommended that the business
     generally forgave all civil and criminal      units provide more information on the type
     penalties. However, they differed as to       of work expected to be completed by the
     whether all or a portion of the interest      additional staff to allow the IRS to more
     was forgiven.                                 accurately project revenues. Additionally,
                                                   the IRS should consider using a forecasting
     TIGTA recommended that the IRS evaluate       model that assigns greater weight to more
     current Federal and State exchange            recent years’ data, such as exponential
     programs to determine whether State tax       smoothing, when appropriate. The IRS
     amnesty information could be obtained and,    should also develop a methodology to
     if so, how this data could be used in IRS     evaluate the results of increased
     compliance programs. IRS management           investments in enforcement activities.
     agreed with the recommendations and
     proposed corrective action.
     Report Reference No. 2005-30-165



April 1, 2005 to September 30, 2005                                                                11
     IRS management agreed to consider                 The Department of the Treasury also
     alternative methods to forecast revenue.          required all bureaus to update their lists of
     However, IRS management does not plan to          critical infrastructure by September 2005.
     use data that is more specific to the             At the time this audit was completed, the
     initiatives, because it does not believe the      IRS was still in the process of performing
     investment of time and resources needed to        the analysis necessary to identify its critical
     generate refined estimates would be a             assets and expected to have it completed by
     prudent use of resources. TIGTA does not          the deadline. However, because the IRS
     believe the use of more specific data would       does not have a process to regularly review
     require more effort.                              its inventory of critical assets, TIGTA
     Report Reference No. 2005-10-159                  recommended that the IRS confirm at least
                                                       annually the accuracy and completeness of
                                                       its critical assets list. The IRS agreed with
                                                       the recommendations and will ensure
     Security of the IRS                               corrective action is taken.
                                                       Report Reference No. 2005-20-108
     Homeland Security Presidential
     Directive/HSPD-7, Critical Infrastructure
     Identification, Prioritization, and
     Protection dated December 17, 2003,               Integrating Performance
     established a national policy for Federal         and Financial Management
     agencies to protect critical national
     infrastructure and key resources from             The IRS has made progress in improving its
     terrorist attacks. HSPD-7 required all            administration of the Earned Income Tax
     Federal agencies to develop plans to protect      Credit (EITC) Program. The IRS
     their critical infrastructure by July 31, 2004.   developed the EITC Reform Initiative to
     The IRS timely provided the Department of         address backlogs of EITC Program
     the Treasury a list of 19 critical assets that    examinations, minimize taxpayer burden
     had been identified in the latter part of         during the audit process, enhance
     1998, in response to The Policy on Critical       compliance efforts, and pilot a certification
     Infrastructure Protection: Presidential           process for higher-risk taxpayers. The IRS
     Decision Directive (PDD-63), dated                also established long-term performance
     May 1998.                                         goals and measures to evaluate its progress
                                                       in improving the Program, and appointed an
     Operational and technical controls for            executive to head the EITC Office.
     critical systems have not been adequately
     tested and prioritized. In addition, plans for
                                                       This executive however, faces the difficulty
     correcting identified weaknesses are
                                                       of holding accountable the functions that
     insufficient. TIGTA believes IRS
                                                       complete EITC Program work, since most
     management has been slow to accept
                                                       of these functions do not report to the EITC
     responsibility for the security of its systems,
                                                       Office. The EITC Office developed
     and has not devoted sufficient attention to
                                                       Service Level Agreements that document
     testing and correcting security weaknesses.




12                                                                  April 1, 2005 to September 30, 2005
     and formalize the services being provided        LITC Program Grant Funding, Clinics, and
     by the operating and functional divisions,               States Represented (1999 – 2005)
     as well as the support the EITC Office          Year
                                                                Grant   Number States/Territories
     will provide to the respective divisions.                 Funding of Clinics Represented
     TIGTA believes this mechanism will              1999     $1.5 million      34             19
     increase the accountability of functions        2000     $4.4 million      70             33
     with EITC Program responsibility. The           2001       $6 million    102              39
     IRS agreed that the EITC Office will            2002       $7 million    127              43
     regularly evaluate the effectiveness of the     2003       $7 million    138              49
     Service Level Agreements.                       2004     $7.5 million    134              51
     Report Reference No. 2005-40-133                2005       $8 million    145              51
                                                    Source: Internal Revenue Bulletins and News Releases.
     The IRS does not have adequate means to
     evaluate the success of its Low Income         To improve the LITC Grant Program,
     Taxpayer Clinic (LITC) Grant Program. In       TIGTA recommended that the IRS establish
     FY 2004, the IRS provided $7.5 million in      program goals and performance measures,
     LITC funds to 134 clinics, yet it has not      and visit prospective clinics before
     established performance measures to            awarding grant funds. In addition, funding
     evaluate the success of the Program and        should be suspended or terminated for
     does not visit prospective clinics before      clinics not in compliance with reporting
     awarding grant funds. Information              requirements. Finally, the IRS should
     provided by the clinics was inconsistent and   establish procedures to check for tax
     not validated. Some clinics did not timely     compliance before awarding grant funds.
     submit required reports. Although clinics      IRS management generally agreed with
     are prohibited from charging fees for          TIGTA’s recommendations.
     preparing tax returns, two clinics appeared    Report Reference No. 2005-10-129
     to be doing so. There were nine clinics that
     received IRS grants of more than $500,000,
     but were not in compliance with their own      Providing Quality Customer
     Federal tax obligations.
                                                    Service Operations
     The LITC Grant Program offers assistance
                                                    The IRS is committed to providing
     to low income taxpayers who are involved
                                                    excellent service to taxpayers and enforcing
     in tax controversies with the IRS and
                                                    America’s tax laws in a balanced manner.
     provides education about taxpayer rights
                                                    Its first strategic goal is to “improve
     and responsibilities to taxpayers for whom
                                                    taxpayer service.” Taxpayers have several
     English is a second language. The
                                                    options when seeking assistance with tax
     following table shows the amount of grant
                                                    issues, including face-to-face assistance at
     funding for 1999 through 2005:
                                                    Taxpayer Assistance Centers (TAC), toll-
                                                    free telephone assistance, and Internet
                                                    assistance through the IRS Web site. The
                                                    IRS is encouraging taxpayers to use
                                                    self-services. The IRS believes its




April 1, 2005 to September 30, 2005                                                                         13
     toll-free service is the method preferred by   During the 2005 Filing Season, the IRS
     the majority of taxpayers seeking assistance   made customer service improvements in
     and provides efficient and cost-effective      several of its delivery channels. In the
     service.                                       TACs, improvements were made in the
                                                    tax return preparation process. The
     Since the creation of the Field Assistance     accuracy rate of tax returns prepared
     Office in October 2000, IRS focus on face-     improved: 79 percent of returns tested were
     to-face service has changed, but key           correctly prepared.
     management information used to make
     decisions and support changes either is        The IRS continued to improve toll-free
     absent or based on incomplete data. The        telephone service access. Specifically, the
     IRS does not have current data to support      IRS planned and met its 82 percent
     why its TACs are in their current locations    Customer Service Representative Level of
     or what services the TACs should provide.      Service goal for the 2005 Filing Season.8
     The IRS needs a management information         Assistors answered 14.8 million calls
     system that will provide accurate and          (4 percent more calls than planned), using
     complete information for identifying the       95 percent of the planned resources. The
     number and locations of the TACs, the          IRS also achieved 105 percent of its
     numbers of the various types of services       planned assistor services and 90 percent of
     provided at the TACs, and the costs of the     its planned automated services.
     TACs. Without this capability, there is no
     assurance that the FY 2005 TAC Program         While the IRS did improve during the
     budget of $159.2 million would be used         2005 Filing Season, TIGTA found some
     most efficiently.                              deficiencies. For 68 percent of the tax
                                                    returns TIGTA observed being prepared at
     TIGTA recommended that the IRS take the        the TACs, assistors did not use the required
     following actions:                             tools to help ensure that taxpayers reported
                                                    all required income and qualified for
     •   enhance its management information         various deductions and credits. In addition,
         system to capture the number of            coordination did not exist between IRS
         taxpayers served, the number and types     offices for sharing best practices used in the
         of services provided, and related costs;   Volunteer Income Tax Assistance
     •   develop a Service Delivery Plan for the    Program.9 TACs also did not assign a
         short-term and long-term direction of      unique Electronic Filing Identification
         the TAC Program; and,
     •   develop a process that includes routine
         assessments, ensuring optimal TAC
         locations and services.                    8
                                                       Level of Service is the primary measure of
                                                      providing taxpayers with access to a live assistor
     IRS management agreed with these                 and has been consistent over the last three
     recommendations and is taking                  9
                                                      filing seasons.
                                                       The Volunteer Income Tax Assistance Program
     corrective action.                               provides Federal tax return preparation and e-filing,
     Report Reference No. 2005-40-110                 targeting underserved segments of individual
                                                      taxpayers, including low-income, elderly, disabled,
                                                      and limited-English-proficient taxpayers.




14                                                                  April 1, 2005 to September 30, 2005
     Number (EFIN),10 as required, for               Erroneous Payments
     electronically-filed tax returns.

     Additionally, TAC assistors correctly           Refund fraud committed by prisoners is
     answered only 66 percent of the 196 tax         growing at an alarming rate. The number
     law questions TIGTA auditors asked during       of false returns from prisoners identified by
     the 2005 Filing Season. This was a              the IRS grew from 4,300 returns during
     nominal improvement from 2004 results,          Processing Year (PY)11 2002 to over 18,000
     but the IRS has not yet achieved its            returns during PY 2004 – a 318 percent
     FY 2005 accuracy rate goal of 81 percent.       increase. Resources and incomplete and
                                                     inaccurate prisoner data may be preventing
     Several performance measures in toll-free       the IRS from detecting more fraudulent
     telephone service also declined during the      prisoner returns. IRS Fraud Detection
     2005 Filing Season. For 4.3 million tax         Centers (FDC) do not have the resources to
     law and 9.3 million account-related             physically screen all prisoner returns.
     assistor-answered calls, the percentage of      During PY 2004, FDCs screened about
     taxpayers who received services within          36,000 of the 455,000 prisoner refund returns.
     30 seconds (Assistor Response Level)
     decreased, and the average number of            TIGTA identified over 18,000 prisoners
     seconds taxpayers waited in the queue           during Calendar Year 2003 who filed
     before receiving services (Average Speed        returns with a filing status of either “single”
     of Answer) increased. In addition, the          or “head of household” while claiming
     Secondary Abandon Rate (in which a              more than $19 million in EITC. In
     taxpayer navigated the automated menu           addition, TIGTA’s analyses of the
     and then disconnected while waiting to          2.8 million prisoner records on the 2004
     speak to an assistor) increased from the        prisoner data file identified about
     2004 Filing Season.                             550,000 records that were either incomplete
                                                     or missing.
     TIGTA recommended that the IRS develop
     a partnership between the TACs to share         Prison officials expressed frustration with
     best practices and a process to ensure that     the IRS’ inability to share information on
     each TAC is assigning a unique EFIN.            prisoner refund fraud. This is because
     TIGTA made no recommendations for the           Internal Revenue Code (I.R.C.) § 6103 (2004)
     other weaknesses identified because they        generally prohibits the IRS from sharing
     had already been outlined in prior reports.     Federal tax information, except under
     IRS management agreed with the                  limited circumstances. Two Members of
     recommendations provided.                       Congress have called for more information
     Report Reference Nos. 2005-40-146, 2005-        sharing and better enforcement measures,
     40-147, 2005-40-152, and 2005-40-155            such as allowing the IRS to share tax


                                                     11
                                                       Processing year refers to the year in which
                                                      taxpayers file their tax returns at the Submission
     10
        An EFIN is a number assigned by the IRS to    Processing sites. Generally, returns for 2003 were
      identify which Electronic Return Originator     processed during 2004, although returns for older
      originated the tax return.                      years were also processed.




April 1, 2005 to September 30, 2005                                                                        15
     information with the State prisons, and one      fictitious information on Schedule C (Profit
     Member of Congress subsequently asked            or Loss From Business), were arriving in
     TIGTA to draft a legislative proposal to         such large volumes that the IRS could not
     revise I.R.C. § 6103 (2004) to allow for this.   stop erroneous refunds from being issued.
                                                      The individuals claimed the EITC, which
     Both TIGTA and the IRS testified at a            increased the amount of the refunds they
     Congressional hearing12 on prisoner refund       claimed. One IRS office stopped refunds
     fraud. IRS officials described several           on tens of thousands of potentially
     initiatives to enhance the detection of false    fraudulent returns and referred the scheme
     refund returns that included:                    to its Criminal Investigation (CI) function.
                                                      The CI function only accepts cases for
     •     continuing coordination to acquire         which it can determine the perpetrator of
           accurate prisoner information to           the fraud and make an arrest. Therefore, it
           maximize the effectiveness of IRS          accepted only a small portion of these
           automated systems;                         returns. There were approximately 70,000
     •     conducting training sessions with IRS      tax returns with claims for refunds totaling
           personnel by discussing expectations of    more than $100 million that were not
           the fraud program and how schemes are      accepted for criminal prosecution.
           perpetrated, and sharing best practices
           with prisons;                              While the 70,000 cases were eventually
     •     increasing efforts in working with State   resolved, TIGTA is concerned that no
           prisons to include routine liaison         formal agreement exists between IRS
           contacts to identify emerging activities   functions to resolve fraud cases. To avoid
           involving refund fraud; and,               costly and time-consuming delays, an overall
                                                      compliance strategy between IRS functions
     •     assuring that all FDCs have procedures
                                                      would have placed the IRS in a better
           to coordinate fraud prevention efforts
                                                      position to handle large volumes of
           with prisons.
                                                      fraudulent Schedule C refund returns.
     TIGTA discussed the results of its review
                                                      TIGTA recommended that the IRS develop
     with IRS officials during fieldwork, and
                                                      an overall compliance strategy for
     they advised of their ongoing efforts to
                                                      Schedules C with fraudulent refunds,
     combat prisoner-related refund fraud.
                                                      especially when large volumes of returns
     Accordingly, TIGTA made no
                                                      are involved. The IRS should also identify
     recommendations; however, it plans to
                                                      potential computerized methods to
     continue assessing the IRS’ efforts on this
                                                      temporarily stop refunds for cases meeting
     important tax administration issue.
                                                      the characteristics of this or other large
     Report Reference No. 2005-10-164
                                                      Schedule C refund schemes. IRS
                                                      management agreed with
     In March 2004, at the IRS’ request, TIGTA        the recommendations and is taking
     became involved with a potential fraud           corrective action.
     scheme. Fraudulent tax returns, using            Report Reference No. 2005-30-140
                                                      (Limited Official Use)
     12
          See page 35.




16                                                                April 1, 2005 to September 30, 2005
     Processing Returns and                                  To further help ensure that Combat Zone
                                                             indicators are correct, TIGTA
     Implementing Tax Law                                    recommended that the IRS continue to
     Changes                                                 work on perfecting the information used to
                                                             update the Master File, develop a quality
                                                             review program to ensure that the accounts
     The IRS provides tax benefits to taxpayers              being analyzed for inaccurate indicators by
     identified on the IRS Master File13 as being            the new computer program are processed
     in a Combat Zone. However, TIGTA                        correctly, and conduct an account review on
     identified a processing issue that affects the          an annual basis. IRS management agreed
     accuracy of the Combat Zone indicators                  with the recommendations and initiated
     and the overall effectiveness and efficiency            corrective action.
     of the Combat Zone program.                             Report Reference No. 2005-40-077

     TIGTA results indicated that over 58 percent            More improvements can be made to
     of the 520,000 taxpayers with an active                 enhance the clarity and usefulness of math
     Combat Zone indicator are incorrect                     error notices and reduce unnecessary
     (i.e., the taxpayers are no longer serving              notices issued to individual and business
     in a Combat Zone). An incorrect active                  taxpayers.
     Combat Zone status allows taxpayers to
     receive special tax treatment to which they
                                                             Many taxpayers who calculated their own
     are no longer entitled to receive, such as
                                                             estimated tax penalties received an
     filing late, not being audited, or having
                                                             unnecessary and confusing math error
     collection action suspended.
                                                             notice telling them they miscalculated the
                                                             total balance they owed on their tax returns.
                                                             As illustrated on the following page,
                                                             instructions on TY 2004 U.S. Individual
                                                             Income Tax Returns (Form 1040), Line 74
                                                             (Amount You Owe) tell taxpayers to,
                                                             “Subtract Line 70 (Total Payments) from
                                                             Line 62 (Total Tax).”

                                                             Taxpayers who followed these instructions
                                                             and also entered an estimated tax penalty on
                                                             the next line (Line 75) received a math
                                                             error notice stating:
                                                                “We changed the refund amount on
                                                                Line 72a or the amount you owe on
                                                                Line 74 of your Form 1040 because the
                                                                amount entered on your tax return was
     13                                                         computed incorrectly.”
       The Master File refers to the IRS Individual Master
      File database that maintains transactions or records
      of individual tax accounts.




April 1, 2005 to September 30, 2005                                                                          17
                              “Amount You Owe” Section of Form 1040
                                      as currently formatted




                                           Source: 2004 Form 1040.

     The problem occurred because IRS                     review the process for revising notices to
     computers are programmed to include the              ensure that they are accurate and
     amount of the estimated tax penalty (Line 75)        consistently formatted, and that taxpayers’
     in the calculation for Line 74. The return           rights to appeal adjustments are clearly
     does not instruct taxpayers to include this          explained on all math error notices. IRS
     line in their calculation. Because the               management generally agreed with the
     amount calculated by IRS computers                   recommendations and initiated corrective
     differed from the amount calculated by               actions. However, the IRS disagreed with
     taxpayers (in accordance with instructions),         the recommendations to make changes to
     an error notice was sent to them. Taxpayers          Forms 1040 and 1040A, stating that there
     received the notice even if they paid the            is not sufficient room on the forms to add
     proper amount (amount of tax owed plus               text. TIGTA disagrees with the IRS’ decision
     estimated tax penalty). As of June 3, 2005,          and believes that without the additional
     improper math error notices were sent to             text, the instructions are incomplete.
     over 3,200 taxpayers who had completed               Report Reference No. 2005-30-154
     their 2004 Forms 1040 and 1040A as
     instructed. Over 700 of these taxpayers had
     their returns prepared by paid tax preparers.

     TIGTA recommended relocating the line
     for estimated tax penalty and adding better
     instructions to correct this problem.
     TIGTA also recommended that the IRS




18                                                                    April 1, 2005 to September 30, 2005
     Taxpayer Protection                              Survey results from taxpayers indicate that
                                                      there has been an improvement in the
     and Rights                                       overall perception of the Office of Appeals’
                                                      independence. In addition, representatives
                                                      from the American Bar Association, the
     The IRS recognizes the growing challenge         American Institute of Certified Public
     of identity theft and its effect on tax          Accountants, the National Association of
     administration. Two primary types of             Enrolled Agents, and the National Society
     identity theft that relate to tax are: (1) an    of Accountants along with former IRS
     individual who files a return using another      officials advised TIGTA that they believe
     person’s name and Social Security Number         the independence is generally very high.
     (SSN) to steal a tax refund; and, (2) an         However, these tax professionals have
     individual using another person’s name,          concerns with independence of specific
     SSN, or both to obtain employment.               programs and initiatives – primarily to
                                                      those involving high-dollar cases in which
     The IRS has no corporate strategy to             there appears to be coordination between
     address identity theft issues. It does not       the Office of Appeals and IRS compliance
     have a consistent process to educate and         functions. TIGTA reviewed the programs
     assist taxpayers, and does not always take       and areas of concern. While there were
     additional actions to deal with the              some specific areas where clarification of
     individuals who have used another’s name         procedures and guidance is needed, the
     and/or SSN to file fraudulent tax returns or     actions taken to streamline processes and
     obtain employment. In addition, the IRS          the coordination to ensure that taxpayers
     does not have comprehensive or centralized       receive consistent treatment appear to be
     data on identity theft to determine its effect   necessary for the Office of Appeals to
     on tax administration. IRS management            effectively perform its function.
     agreed with the recommendations presented
     in the report and has developed an               TIGTA recommended that the IRS clarify
     Enterprise Identity Theft Strategy.              certain procedures related to coordinated
     Report Reference No. 2005-40-106                 issues. In addition, TIGTA recommended
                                                      that IRS officials, with the exception of the
     Some concerns have been expressed by tax         IRS Commissioner and the Chief, Office of
     professionals and the National Taxpayer          Appeals, avoid discussing the impact of
     Advocate that new policies, programs, and        specific court cases on Appeals Settlement
     structures initiated by the IRS since            Guidelines and revise policies and
     enactment of RRA 98 may be                       procedures to promote consistency. IRS
     compromising the independence of the             management agreed with the
     Office of Appeals. TIGTA found that the          recommendations and will take corrective
     overall independence provided by the             action.
     Office of Appeals’ structure and processes       Report Reference No. 2005-10-141
     appears to comply with the intent of
     RRA 98.




April 1, 2005 to September 30, 2005                                                                   19
     Human Capital                                   the OPM guidelines, implement a system to
                                                     accurately determine the number of
                                                     employees participating in the Flexiplace
     The IRS first implemented its telework          Program, implement guidelines to assess
     program (known as the Flexiplace Program)       employees’ abilities to participate without a
     in 1995. Despite widespread participation       loss of productivity, and provide training to
     in the IRS Flexiplace Program, the IRS has      address productivity issues. Additionally,
     not implemented adequate policies or            the IRS should determine what logistical
     guidelines for the Program. Employee            support and equipment employees need,
     participation in the Program is not tracked,    and ensure that employees get the proper
     which makes it difficult for the IRS to         equipment to enable employee productivity
     accurately report to the Office of Personnel    and security of sensitive data. IRS
     Management (OPM) on Program                     management agreed with the
     participation. Not tracking employee            recommendations and proposed corrective
     participation also makes it difficult for the   action.
     IRS to ensure employees have the needed         Report Reference No. 2005-10-107
     support and equipment to work successfully
     at alternate locations. It also limits the      The Federal Workforce Flexibility Act of
     ability of the IRS to identify office space     200414 requires agencies to regularly assess
     that is not needed for employees who            their training efforts to determine whether
     telecommute most of the time.                   their training is contributing to the
                                                     successful completion of the agencies’
     Additionally, some IRS managers                 missions. The IRS has training assessment
     expressed concerns that the productivity of     procedures; however, they were generally
     employees participating in the Flexiplace       not followed by the IRS operating divisions
     Program is reduced. Although IRS                that TIGTA reviewed.
     managers have received training on the
     provisions of the Union agreement related       In 24 (56 percent) of the 43 training courses
     to the Flexiplace Program, the training did     sampled, there was no evidence that an
     not address how to determine which              assessment was performed to support
     employees are suited to work away from          changes or updates to the courses. The lack
     the office, how to assess employee              of documentation of the actions taken
     performance, or the other challenges of         prevented verification of whether the IRS
     managing employees working in remote            is taking steps to ensure that employees are
     locations. Surveys of IRS managers              getting the right training to perform their
     indicated that better equipment and             jobs effectively.
     telecommunications access would improve
     employee productivity. Furthermore,             Additionally, the IRS’ usage of the
     guidelines are needed to ensure that            Integrated Training Evaluation and
     employees participating in the Flexiplace       Measurement Services system is limited.
     Program receive the correct locality pay.       This system gathers and analyzes training

     TIGTA recommended that the IRS develop
     overall program guidelines that conform to      14
                                                          Pub. L. 108-411, 118 Stat. 2305 (2004).




20                                                                    April 1, 2005 to September 30, 2005
     data by providing four different types of      Workforce Flexibility Act of 2004. IRS
     assessments. The IRS paid almost $4 million    management should also use the numeric
     over a seven-year period for this system. It   scores from the Employee Satisfaction
     should be used more effectively, or its use    Survey to perform analyses in identifying
     should be discontinued and replaced with a     problems or trends with training, and use
     more cost-effective system.                    this information in the training assessment
                                                    and development process. IRS
     TIGTA recommended that the IRS follow          management agreed with the
     the assessment and documentation               recommendations and will implement
     requirements to ensure that its employees      corrective action.
     have the knowledge and skills needed to        Report Reference No. 2005-10-149
     successfully perform their jobs. In
     addition, the IRS should ensure that
     procedures are established to evaluate
     training in compliance with the Federal




April 1, 2005 to September 30, 2005                                                               21
            "…Our Constitution
           is in actual operation;
       everything appears to promise
              that it will last;
     but nothing in this world is certain
           but death and taxes."




            Benjamin Franklin




22                                   April 1, 2005 to September 30, 2005
                                         Protect the Integrity
                                        of Tax Administration


     T    he overall mission of TIGTA’s Office
          of Investigations (OI) is to help protect
     the ability of the IRS to collect revenue for
                                                      TIGTA’s statutory responsibility includes
                                                      not only the protection and detection of
                                                      fraud, waste and abuse within the IRS,
     the Federal Government. To do this, we           but also includes responsibility for the
     conduct investigations and proactive             protection of the integrity of
     investigative initiatives to ensure the          tax administration.
     integrity of IRS employees, contractors,
     and other tax professionals; to ensure IRS       In recent years, the IRS has increasingly
     employee and infrastructure security; and        relied upon contractor support within all
     to protect the IRS against external attempts     facets of its operation. With this change,
     to corrupt tax administration.                   schemes to defraud the IRS have evolved.
                                                      TIGTA has responded to this challenge by
                                                      placing a greater emphasis on the
                OI’s Primary Duties                   following activities:
      •   Investigate allegations of criminal
          violations that impact Federal tax          •   investigating fraud involving IRS
          administration, and serious                     procurements; and,
          administrative misconduct by
          IRS employees;                              •   conducting integrity and fraud
      •   Conduct proactive investigative
                                                          awareness presentations for IRS
          initiatives to detect criminal and              employees and others, such as tax
          administrative misconduct in the                practitioners and community groups.
          administration of IRS programs;
      •   Operate a national complaint center,
                                                      Recognizing the challenges of protecting
          including a hotline and Web site, to
          process complaints of fraud, waste,         Federal tax administration in today’s
          abuse and misconduct involving IRS          modern environment, OI has three
          employees and programs;                     divisions dedicated to the technical support
      •   Operate a Criminal Intelligence             of TIGTA’s investigative mission. They
          Program to manage and coordinate            are: Strategic Enforcement, Forensic
          threat information that could impact the    Science Laboratory, and Technical and
          security of IRS employees or its
          infrastructure; and,                        Firearms Support. The performance of
      •   Investigate assaults and threats made
                                                      these divisions is featured throughout this
          against IRS employees, facilities, and      chapter of our semiannual report.
          information systems.




April 1, 2005 to September 30, 2005                                                                  23
           TIGTA INVESTIGATIVE PERFORMANCE MODEL




     TIGTA’s Office of Investigations (OI) bases its performance measures on three
     primary areas of investigation: employee integrity, employee and infrastructure
     security, and external attempts to corrupt tax administration. Each of these
     three areas is subdivided into three categories, all designed to support the
     agency’s law enforcement goals.




24                                                         April 1, 2005 to September 30, 2005
     Our strategy for ensuring employee
     integrity, employee and infrastructure                      OI Promotes Integrity
     protection, and protecting the IRS against          One of the many ways OI promotes integrity
     external attempts to corrupt tax                    in the administration of the Internal Revenue
     administration is to focus TIGTA special            Code is by administering a program of
                                                         Integrity/Fraud Awareness presentations to
     agents on high impact investigations that           IRS employees. These presentations help
     protect the ability of the IRS to collect the       employees identify ways they can prevent
     nation’s tax revenue.                               fraud, waste, and abuse, and to report
                                                         suspected misconduct to TIGTA.

                                                         TIGTA also conducts integrity and fraud
     Employee Integrity                                  awareness presentations to the tax
                                                         practitioner community. TIGTA views the
                                                         tax practitioner community as an important
     Employee misconduct undermines the IRS’             partner in ensuring integrity within Federal
     ability to deliver taxpayer service, to             tax administration. While tax practitioners
     enforce tax laws effectively, and to collect        have no formal obligation to report
                                                         wrongdoing, they are often in the best
     taxes owed. TIGTA investigates employee             position to observe unethical conduct either
     misconduct allegations, including extortion,        inside the IRS or within their own profession.
     theft, taxpayer abuses, false statements, and       In either instance, the integrity of tax
     financial fraud, as well as contractor              administration is jeopardized to the detriment
     misconduct and wrongdoing. During the               of the honest tax practitioner.
     reporting period, we completed 952 employee         During briefings at regional tax forums and
     integrity investigations.                           national association conferences, OI
                                                         emphasizes the integral role tax
     TIGTA’s investigative program related to            practitioners play in maintaining integrity
     employee integrity goes beyond mere                 within the tax system. We made 734
                                                         Integrity/Fraud Awareness presentations this
     response to complaints. We conduct                  semiannual reporting period.
     proactive integrity initiatives designed to
     detect fraud in the ever-changing IRS
     operations and to identify internal control
     weaknesses that may have permitted the          The following cases are examples of IRS
     fraud to go undetected or unreported.           employee integrity investigations conducted
     Unauthorized access (UNAX) and                  during this reporting period.
     disclosure of confidential taxpayer
     information continues to be a source for        Former IRS Data Transcriber Sentenced
     proactive integrity initiatives. TIGTA’s        for Stealing more than $350,000 in
     Strategic Enforcement Division (SED)            Tax Refunds
     proactively detects IRS employees in
     violation of their duty to protect taxpayer     A former IRS employee was sentenced in
     information. During this reporting period,      August 2005 for conspiracy, wire fraud,
     our UNAX Program led to the initiation          theft of Federal Government funds, money
     of 259 investigations involving apparent        laundering, and false representation of a
     unauthorized access of IRS computer systems.    social security number. The former




April 1, 2005 to September 30, 2005                                                                       25
     employee stole tax refunds by routing them               employee, who was responsible for
     to bank accounts she controlled with                     processing taxpayer records filed with the
     another IRS employee and co-conspirators.                IRS, allegedly removed and destroyed
     The former employee diverted more than                   numerous taxpayer records in his custody.
     $350,000 and attempted to divert an                      In addition, he attempted to remove and
     additional $154,949 in tax refunds. She                  destroy numerous taxpayer records that
     was sentenced to 70 months in prison,                    included corrected Forms W-2 (Wage and
     two years’ probation, and was ordered to                 Tax Statements) and letters from taxpayers
     pay more than $363,000 in restitution.                   and their representatives.


     Former IRS Procurement Official                          Former Revenue Officer Pleads Guilty to
     Sentenced for Theft of Government                        Unlawful Acts of Revenue Officers
     Property Totaling more than $23,000                      Including Accepting Checks and Gifts of
                                                              more than $18,000
     A former IRS procurement official was
     sentenced in June 2005 for theft of                      A former revenue officer pled guilty in
     government property. The former                          July 2005 to unlawful acts of revenue
     employee used a government purchase card                 officers. According to the plea agreement,
     to charge approximately $23,971 to pay for               the individual was assigned a collection
     computer equipment and supplies for                      investigation pertaining to a corporation
     himself and for family members. He was                   and knowingly received illegal payment for
     sentenced to three years’ probation and was              the performance of a duty. The president of
     ordered to pay more than $23,900 in                      the corporation gave the former employee
     restitution. He was also debarred for                    gifts, including checks totaling $18,665,
     three years from participating in Federal                which were used for personal expenses and
     Government procurement requirements.                     the purchase of a Jeep.


     IRS Employee Indicted for Destroying                     Former IRS Tax Examining Assistant
     Taxpayer Records                                         Sentenced for Unauthorized Disclosure
                                                              of Tax Information
     An IRS employee was indicted in April 2005
     for the removal and destruction of                       A former IRS employee was sentenced in
     Government records and for attempting to                 July 2005 for unauthorized disclosure of
     do so. According to the indictment, the                  returns and return information. According


                           Investigative Efforts Enhanced through Technology
       TIGTA’s investigative efforts are greatly enhanced by its Technical and Firearms Support Division and
       Forensic Science Laboratory. These programs provide technical expertise throughout our
       investigations. During the reporting period, the Technical and Firearms Support Division provided
       electronic or surveillance support in 150 investigative requests, while the Forensic Science Laboratory
       conducted 72 forensic examinations. Over the last fiscal year, TIGTA has invested substantially in the
       acquisition of cutting-edge technology, helping to ensure that our technical and forensic staff is able to
       deliver state-of-the-art results long into the future.




26                                                                          April 1, 2005 to September 30, 2005
     to the plea agreement, the former employee      acts targeted against IRS facilities,
     willfully disclosed returns and return          employees, and operations. Working with
     information of taxpayers, including their       other Federal, State and local law
     names, addresses, and social security           enforcement agencies that have similar
     numbers. The individual disclosed this          goals, TIGTA participates in FBI Joint
     information to her daughter, who used it to     Terrorism Task Forces throughout the
     locate the owner of unclaimed property and      country and assists the IRS in developing
     enter into a contingent fee agreement. The      and enhancing its employee safety and
     former IRS employee was sentenced to            infrastructure security programs. During
     30 days in prison, three years’ probation,      this reporting period, we completed
     and was ordered to pay a $1,000 fine.           200 investigations of threats and assaults
                                                     directed at IRS employees and facilities,
                                                     and issued 273 advisories notifying IRS
     IRS Employee Pleads Guilty to Theft of          management of potential threats.
     more than $19,000 in Tax Remittances
     An IRS employee pled guilty in April 2005
     to theft and conversion of property of the
                                                        TIGTA Bolsters Its Ability to Protect
     United States. According to the plea
                                                        Continuity of TIGTA/IRS Operations
     agreement, the IRS employee stole 14 tax                     in Emergencies
     remittances totaling approximately $19,668
                                                        Events in recent years have demonstrated
     from the mailroom, and used the money to           the need for all Federal agencies to plan
     pay personal debts and expenses.                   for incidents that might challenge their
                                                        ability to sustain operations. Whether the
                                                        result of a terrorist attack or natural
                                                        disaster, Government agencies are
     Employee and                                       required to be capable of conducting
     Infrastructure Security                            continuous operations from a remote
                                                        facility for up to 30 days. TIGTA has a
                                                        robust Continuity of Operations Plan
     The identification and investigation of            (COOP) to ensure that we are capable of
     potential and real threats to IRS employees        rapid and appropriate response to events
     and IRS data continues to be a challenge.          that would otherwise disrupt TIGTA or
     The collection of revenue to fund Federal          IRS operations.
     programs is integral to the overall function       TIGTA's COOP program includes
     of the government. Threats and assaults            participation in all Treasury Department
     against employees and facilities must be           Emergency Coordinators' meetings and
     rigorously investigated to not impede              all IRS Headquarters COOP exercises.
     efforts to collect tax revenue.                    Last year, we supported the IRS during
                                                        the Forward Challenge Treasury
                                                        Department-wide COOP exercise. In FY 2006,
     TIGTA operates a nationwide Criminal               we will continue our participation in IRS
     Intelligence Program (CIP) to protect the          Headquarters-level exercises, and we will
     IRS from external threats from individuals,        expand our participation in nationwide
     anti-government groups, and domestic               COOP exercises scheduled by the IRS
                                                        Commissioner's Senior Representatives.
     terrorists. The CIP is designed to identify
     and neutralize threats, assaults, and violent



April 1, 2005 to September 30, 2005                                                                  27
     The following cases are examples of IRS        The individual used threats of force to
     employee and infrastructure security           intimidate an IRS employee who was acting
     investigations conducted during this           in an official capacity.
     reporting period.


                                                    Individual Indicted for Making Threats
     Individual Sentenced for Soliciting to         Against IRS Employees
     Murder IRS Employee
                                                    An individual was indicted in May 2005 for
     An Idaho businessman, under criminal           obstructing and impeding the due
     investigation for Federal tax violations,      administration of internal revenue laws by
     solicited another person to murder an IRS      threats of force. According to the indictment,
     Special Agent, an Assistant United States      the individual allegedly made threats of
     Attorney, and a Federal Judge who were         physical violence against IRS employees,
     assigned to the investigation. He was          including threats involving a firearm.
     sentenced to 43 years in prison and
     three years’ supervised release. He was
     also ordered to pay $720 in restitution to
                                                    IRS Contract Employee Sentenced for
     the IRS Special Agent, a $2,725 special
                                                    Computer Fraud and Ordered to pay
     assessment, and was fined $100,000.
                                                    $50,000 in Restitution
                                                    An IRS contract employee was sentenced in
     Individual Arrested for Threatening to         June 2005 for computer fraud. According
     Murder IRS Employees                           to court documents, the contract employee
                                                    intentionally accessed a protected IRS
     An individual was arrested in July 2005 for    computer without authorization, causing
     threatening to assault and murder Federal      damage. The contract employee was
     law enforcement officers and IRS               sentenced to two years’ probation and was
     employees. According to the criminal           ordered to pay the costs associated with his
     complaint, the individual contacted the IRS    probation and $50,000 in restitution to the IRS.
     to discuss his tax issues and threatened to
     “put to death” any messenger, law
     enforcement agent, or agent of the IRS who
     touched his property or accounts. The
     individual also allegedly stated that an IRS
     employee who previously audited his tax
     returns, “… needs to be dead.”


     Individual Pleads Guilty to Threatening
     IRS Employee
     An individual pled guilty in June 2005 to
     attempting to interfere with the
     administration of internal revenue laws.




28                                                               April 1, 2005 to September 30, 2005
     External Attempts to Corrupt                      investigative model similar to that used
                                                       successfully with lockbox operations.
     Tax Administration                                TIGTA’s Procurement Fraud Section (PFS)
                                                       within our Special Inquiries and
     TIGTA is dedicated to investigating               Intelligence Division (SIID) is committed
     external attempts to corrupt or interfere         to the identification and investigation of
     with the administration of internal revenue       procurement fraud within the IRS. The
     laws. Examples of these attempts include          PFS achieves its goals through proactive
     bribes offered by taxpayers to compromise         and reactive investigations, fraud
     the integrity of IRS employees, the use of        awareness presentations, investigative
     fraudulent IRS documentation to commit            initiatives, data analysis, and liaison.
     crimes, impersonation of IRS officials, and       Agents within the PFS possess the
     the corruption of IRS programs through            specialized skills necessary to identify
     procurement fraud. External attempts to           contract fraud, and to ensure that
     corrupt tax administration impede the IRS’        individuals and businesses responsible for
     ability to collect revenue.                       such fraud are held accountable.
     Since April 1, 2005, we have conducted
     90 investigations into external attempts to             TIGTA’s Contract Lockbox
     manipulate or corrupt IRS systems and                Investigations Prove Successful
     operations, and 266 investigations into              TIGTA has a great deal of experience
     external fraud and other related activities.         conducting investigations of the lockbox
                                                          program and other contract fraud
     The IRS continues to place special                   investigations. Lockbox employees are
                                                          contract employees who work for a bank
     emphasis on outsourcing activities                   and have access to Federal tax returns
     traditionally performed in-house. To                 and Federal tax remittances. From
     accomplish this goal, the IRS must rely              April 1, 2001, through September 30, 2005,
     heavily on contractor support. For                   TIGTA initiated 137 investigations
     example, the IRS depends on contractor               involving lockbox theft that identified
                                                          Theft/Embezzlements of approximately
     lockbox facilities to collect 29 percent of          $4.1 million. Thirty-seven were accepted
     all tax remittances. In Fiscal Year 2004,            for prosecution in Federal and State
     the IRS processed more than $237 billion             courts. At the Pittsburgh (Mellon Bank)
     in tax remittances through various                   lockbox site, more than 70,000 tax
     Government-contracted facilities, all of             remittances worth approximately
                                                          $1.2 billion (affecting more than 58,000
     which are commercial banking institutions.           taxpayers) were lost or destroyed. At the
     TIGTA investigations have identified                 Richardson (Dallas) lockbox site,
     numerous incidents of fraud within                   TIGTA’s investigation identified 26 stolen
     contracted lockbox operations.                       tax remittances totaling more than
                                                          $2.7 million. Previous experience with
                                                          lockbox facilities has proven that the
     With the IRS moving toward the                       integrity of contract collection services
     privatization of its debt-collection activities      is vulnerable without the proper
     through contracted Private Collection                investigative oversight only TIGTA
     Agencies (PCAs), TIGTA anticipates                   can provide.
     providing oversight of PCAs using an




April 1, 2005 to September 30, 2005                                                                    29
     The following cases are examples of               in prison, three years’ supervised release,
     investigations of Lockbox fraud and other         and ordered to pay approximately $13,000
     external attempts to corrupt tax administration   in restitution. Upon release from custody,
     conducted during this reporting period.           he will be turned over to U.S. Citizenship
                                                       and Immigration Services authorities for
                                                       possible deportation proceedings.
     Two IRS Lockbox Employees Indicted
     for Stealing Tax Payments in Georgia
     Two individuals were indicted for bank            Additional Thefts of Tax Remittances at
     fraud, conspiracy, and aiding and abetting        Dallas Lockbox Under Investigations
     in April 2005. The individuals were               In a separate investigation, an individual
     employed at a Bank of America IRS                 was arrested in July 2005 for unlawfully
     lockbox facility in Georgia and allegedly         receiving, concealing, and retaining stolen
     stole money orders that were sent to the          property of the United States. The criminal
     lockbox by taxpayers to pay their Federal         complaint alleged that the individual
     income taxes. The individuals allegedly           deposited two tax remittance checks
     forged their names on 23 money orders,            totaling $58,390 into two bank accounts she
     totaling more than $6,000, and negotiated         opened at the same bank. The tax
     them at check-cashing facilities and U.S.         remittance checks had been mailed to the
     Postal Service offices.                           IRS Dallas lockbox by taxpayers.

                                                       Additional individuals were arrested in
     Theft of Tax Remittance Checks                    July 2005 for crimes involving conspiracy
     And Conspiracy at IRS Dallas                      to commit bank fraud and theft of
     Lockbox Facility                                  Government property related to the Dallas
     On June 1, 2005, an individual was                Lockbox. These criminal complaints alleged:
     sentenced for aiding and abetting theft of
     Government property and illegal reentry           •   A person arrested for theft of
     after deportation. Court documents state              Government property deposited a
     the individual received tax remittance                $20,000 check into a bank account he
     checks valued at more than $175,220,                  opened. The check had been mailed by
     which were removed from the IRS Dallas                a taxpayer to the IRS Dallas lockbox as
     lockbox by a former contract employee, and            a tax payment.
     that he altered the payees and deposited          •   Another person arrested for conspiracy
     and/or attempted to deposit the checks into           to commit bank fraud deposited a tax
     bank accounts opened in the names of                  remittance check in the amount of
     innocent individuals or assumed names. On             $42,030 into a fraudulent bank account.
     July 28, 2004, he entered a plea of guilty to
     the above charges, which included a charge        In furtherance of the fraudulent scheme, a
     of illegal reentry after having been              $15,800 counterfeit check was allegedly
     previously deported from the United States        created and drawn on the same bank
     in 1998 for a similar type of conduct. As a       account as the tax remittance check and
     result of this investigation, the individual      then deposited into the fraudulent bank
     was subsequently sentenced to eight years         account by an unknown individual.



30                                                                 April 1, 2005 to September 30, 2005
     Individual Sentenced for Impersonating          Two Individuals Indicted for
     IRS Employee                                    $200,000 Bribe
     An individual was sentenced in June 2005        Two individuals were indicted in April 2005
     for impersonating an IRS employee. The          for bribery, and aiding and abetting.
     individual obtained money from four             According to the indictment, one
     individuals by falsely assuming and             individual, who was allegedly aided and
     pretending to be an IRS employee. The           abetted by others, offered an IRS Revenue
     individual was sentenced to three years in      Agent $200,000 to circumvent an IRS
     prison, one year supervised release, and        tax audit. The IRS Revenue Agent, who
     was ordered to pay restitution of $860 to       was convicted for his part in the bribery
     the victims.                                    scheme, arranged to have a second
                                                     individual receive the $200,000 from the
                                                     first individual.

          Strategic Enforcement Division             Individual Charged with Interfering with
             Battles Network Intrusion
                                                     Tax Administration
        Individuals and anti-government groups
        are increasingly attempting to               An individual was charged in May 2005
        undermine the tax system by exploiting       with attempts to interfere with
        cyber-tools and electronic means as
                                                     administration of internal revenue laws.
        weapons. Through the operation of its
        System Intrusion Network Attack              The individual allegedly prepared fictitious
        Response Team TIGTA’s Strategic              IRS Forms 8300 (Report of Cash Payments
        Enforcement Division (SED) works with        Over $10,000 Received in a Trade or
        the IRS to promote the security and          Business) that claimed Federal and State
        integrity of all IRS computer systems by
                                                     officials and employees, including an IRS
        providing technical support, conducting
        criminal investigations, and participating   employee, had engaged in suspicious cash
        in proactive initiatives. A cadre of         transactions. The individual also allegedly
        dedicated computer specialists and           submitted copies of the forms to the IRS
        criminal investigators rapidly responds      and/or the Secretary of the Treasury,
        to computer intrusion incidents,
                                                     intending to cause the IRS to conduct
        investigates IRS network problems
        when indicators of intentional disruption    investigations of the officials and
        are present, and conducts recurring          employees as a means of retaliation.
        systems tests and scans to detect new        The individual also allegedly impeded an
        vulnerabilities. Since April 1, 2005,        IRS Special Agent’s efforts to conduct a
        TIGTA SED special agents and
                                                     criminal investigation of him when he
        computer specialists have conducted
        nine computer security reviews/tests         submitted 10 fictitious Forms 8300 to the
        and 306 criminal investigations in           Special Agent, falsely claiming on each
        areas where security potentially could       form that the Special Agent had engaged in
        be compromised.                              suspicious transactions involving more than
                                                     $2.7 million in cash.




April 1, 2005 to September 30, 2005                                                                 31
     Individuals Arrested for Perjury             “Sight Order,” or “Money Order,” to
     Involving False Reports Filed with IRS       establish a credit line and to pay credit card
                                                  bills. The individual sent the credit card
     Five individuals were arrested in            companies sight drafts and money orders of
     August 2005 for allegedly filing false IRS   more than $275,000 that were purportedly
     Forms 8300 with the IRS. According to the    drawn on an account at the United States
     indictments, the five individuals filed      Treasury. The individual was sentenced to
     several Forms 8300 that wrongfully           two years in prison, three years’ supervised
     reported that others had engaged in          release, and was ordered to pay the credit
     suspicious transactions ranging from         card companies $192,096 in restitution.
     $105,069 to $500 million. Falsely
     reporting information to the IRS
     using Form 8300 can cause the IRS            Individual Indicted for Making False
     to unnecessarily investigate certain         Statements on IRS Forms
     persons, which can be done to harass or
     retaliate against others, including          An individual was indicted in April 2005
     Government officials.                        for false statements. The individual
                                                  allegedly submitted three IRS Forms 2848
                                                  (Power of Attorney and Declaration of
     Individual Sentenced for Mail Fraud          Representative) to the IRS to be permitted
     Involving Fictitious Financial               to represent taxpayers before the IRS. The
     Instruments                                  individual allegedly claimed on the forms
                                                  that he was a Certified Public Accountant
     An individual was sentenced in April 2005    (CPA) who was qualified to practice in
     for mail fraud. The individual used the      Maryland, knowing that he was not
     United States Postal Service to send         qualified to practice as a CPA in any state.
     false and fictitious instruments to credit
     card companies, entitled “Sight Draft,”




32                                                             April 1, 2005 to September 30, 2005
                                TIGTA Leads Treasury-wide
                               Land Mobile Radio Program
              The Department of the Treasury has designated TIGTA to provide program
              management for its Land Mobile Radio Program. Supporting law enforcement
              personnel with Internal Revenue Service Criminal Investigation, the United
              States Mint, and the Bureau of Engraving and Printing, OI serves as the central
              coordination and management body for land mobile radio communications,
              operations, planning, and spectrum management Department-wide.

              TIGTA’s responsibilities under the Land Mobile Radio Program include:

                •   Manage the tactical wireless communications of the Treasury’s Wireless
                    Programs Office;
                •   Represent the Treasury at the Integrated Wireless Network (IWN), a
                    Governmentwide initiative for interoperability between the Departments of
                    the Treasury, Justice, and Homeland Security. This activity includes
                    continuation of “Sector” support with the U.S. Immigration and Customs
                    Service (formerly the U.S. Customs Service);
                •   Represent the Treasury at the Interdepartmental Radio Advisory
                    Committee as a permanent member on that committee for Federal radio
                    spectrum allocation;
                •   Represent the Treasury in Project SafeCom, a program designed to
                    promote interoperability among Federal, State, and local government
                    safety forces; and,
                •   Coordinate Treasury resources and conduct strategic planning
                    for COOP.

              The selection of TIGTA as the Department’s Land Mobile Radio Program
              manager was the result of its longstanding expertise with IWN and
              communication technologies, and its favorable reputation in the law
              enforcement community.




                                                       .




April 1, 2005 to September 30, 2005                                                             33
                                                         Congressional
                                                            Testimony

                                  I  nspector General J. Russell George appeared before Congress
                                     five times during this semiannual reporting period. The
                                  following are summaries of his testimonies:



       AApprriill 77,, 22000055   Mr. George appeared before the Senate Appropriations
                                  Subcommittee on Transportation, Treasury, the Judiciary,
                                  Housing and Urban Development, and related agencies on
                                  April 7, 2005. This hearing addressed the IRS’ Fiscal Year 2006
                                  Budget Request. Mr. George presented the major challenges
                                  facing the IRS and asked that Congress consider these challenges
                                  when determining the IRS’ appropriation for FY 2006.


     AApprriill 1144,, 22000055   Later that month, on April 14, 2005, Mr. George appeared before
                                  the Senate Committee on Finance. The topic of his testimony
                                  was, The $350 Billion Question: How to Solve the Tax Gap.
                                  Mr. George discussed the scope, size and nature of the tax gap
                                  issue as well as recommendations for closing the tax gap.
                                  Mr. George stressed finding the appropriate balance between
                                  enforcement, taxpayer rights, and customer service.


     Maayy 1199,, 22000055
     M                            Appearing before the Joint Congressional Review of the Internal
                                  Revenue Service on May 19, 2005, Mr. George participated in a
                                  discussion of the IRS’ strategic plan and budget request. The
                                  three primary goals of the IRS are to:
                                         •   Improve taxpayer service;
                                         •   Enhance enforcement of the tax law; and,
                                         •   Modernize the IRS through its people,
                                             processes, and technology.
                                  Mr. George emphasized the need for resources to attain and
                                  maintain these goals.



34                                                                 April 1, 2005 to September 30, 2005
           M                         Mr. George appeared before the Senate Committee on Finance on
           Maayy 2255,, 22000055     May 25, 2005 to discuss TIGTA’s release of a report regarding
                                     the IRS’ administration of certain employment tax laws.
                                     Specifically, the report focused on the fairness in the
                                     administration of self-employment tax laws. A comparison of the
                                     application of employment tax liabilities of sole proprietorships
                                     to the employment tax liabilities of single-shareholder S
                                     corporations revealed inequities. The different tax treatment has
                                     caused the S corporation form of ownership to become a
                                     multimillion dollar employment tax loophole for single-
                                     shareholder businesses. TIGTA will work with the IRS to
                                     identify and recommend solutions to this problem.



          JJuunnee 2299,, 22000055   The final testimony of this semiannual reporting period was on
                                     June 29, 2005. Mr. George spoke before the House Ways and
                                     Means Subcommittee on Oversight. The purpose of this hearing
                                     was to examine tax fraud being committed by prison inmates.
                                     Mr. George explained that TIGTA is currently conducting an
                                     audit of the extent of prisoner refund fraud and IRS efforts to
                                     combat the fraud.
                                     Mr. George also stated that while the IRS Criminal Investigations
                                     Division has taken steps to address this problem, the IRS is not
                                     solely responsible for confronting the problem. Much of the data
                                     submitted by Federal and State prison officials is inaccurate and
                                     incomplete. Prison officials should be required to transmit
                                     complete and accurate information on the prisoner population to
                                     the IRS.




                                         “At this point during our review, we can confidently
                                        state that prisoner tax fraud is rising, prisoners file a
                                        disproportionately higher percentage of fraudulent
                                        returns than the general public, the IRS frequently pays
                                        refunds on tax returns despite identifying these returns
                                        as fraudulent, and the IRS lacks adequate data to
                                        ascertain the extent of the prisoner fraud problem.”

                                                                J. Russell George, June 29, 2005




April 1, 2005 to September 30, 2005                                                                      35
       "Taxation is, in fact,
         the most difficult
      function of government
      and that against which
     their citizens are most apt
         to be refractory."




        Thomas Jefferson




36                                 April 1, 2005 to September 30, 2005
                                      Special Achievements

                       TIGTA Agent Receives H.I.R.E.Award

     T    IGTA Assistant Special Agent in Charge
          (ASAC) Ernest Valverde received the
     Hispanic Internal Revenue Employees
                                                     Banquet. ASAC Valverde is currently the
                                                     Regional Vice-President for the Southeast
                                                     Region covering Florida, Georgia, and
     (H.I.R.E.) Vice-President of the Year           Puerto Rico.
     Award. The H.I.R.E. goals are to assist the
     IRS in the recruitment, hiring, training,
     career advancement and retention of
     Hispanics and all other employees, and to
     instill the highest degree of self-esteem and
     confidence in their abilities in an
     environment free from discriminatory
     practices. The award is given to the
     individual who contributes to the success of
     the organization by exemplifying its goals
     and putting forth a tireless effort in
     accomplishing those goals.
                                                     Pictured left to right are ASAC Valverde, Silvia Tovar,
     The award was presented on June 30, 2005,       Past National President, and Henry Mendoza, Past
     in Austin, Texas, during the H.I.R.E.           National Vice-President.
     National Training Conference Awards




                       TIGTA Employees Win PCIE Awards
     The President’s Council on Integrity and        • Mr. Gerald Hurry, ASAC, Atlanta;
     Efficiency (PCIE), which is comprised of        • Mr. Andrew Fried, Senior Special Agent,
     Inspectors General appointed by the               Strategic Enforcement Division, and the
     President, annually recognizes those in the       IRS Computer Network Team;
     Inspector General community who have            • Memphis Information Systems
     made outstanding audit, inspection, or            Program Team;
     investigative achievements. TIGTA               • Capital Expenditures – E300 Audit Team;
     congratulates its two individuals and five      • Failure to Pay Penalty Team; and,
     teams that were selected as recipients of       • Earned Income Tax Credit Audit Team.
     Awards for Excellence:



April 1, 2005 to September 30, 2005                                                                            37
                                                                                 Audit
                                                                   Statistical Reports

                                                                        Reports With Questioned Costs

     TIGTA issued five audit reports with questioned costs during this semiannual reporting period.1
     The phrase “questioned cost” means a cost that is questioned because of:
               •    an alleged violation of a provision of a law, regulation, contract, or other requirement
                    governing the expenditure of funds;
               •    a finding, at the time of the audit, that such cost is not supported by adequate
                    documentation (an unsupported cost); or,
               •    a finding that expenditure of funds for the intended purpose is unnecessary or
                    unreasonable.
     The phrase “disallowed cost” means a questioned cost that management, in a management
     decision, has sustained or agreed should not be charged to the Government.


                                                                                                Reports With Questioned Costs
                                                                                           Questioned Costs               Unsupported Costs
                           Report Category                                 Number
                                                                                            (in thousands)                  (in thousands)

     1. Reports with no management decision at the
        beginning of the reporting period                                       4                     $936                            $684
     2. Reports issued during the reporting period                              5                   $3,685                          $2,597
     3. Subtotals (Item 1 plus Item 2)                                          9                   $4,621                          $3,281
     4. Reports for which a management decision
        was made during the reporting period2
          a. Value of disallowed costs                                          3                     $829                                  $1
              b. Value of costs not disallowed                                  0                        $0                                 $0
     5. Reports with no management decision at the
        end of the reporting period2 (Item 3 minus Item 4)                      7                   $3,792                          $3,280
     6. Reports with no management decision
        within 6 months of issuance                                             4                     $936                            $684
     1
         See Appendix II for identification of audit reports involved.
     2
         Includes one report in which IRS management disallowed part of the questioned cost and has not made a decision on the remainder.




38                                                                                                      April 1, 2005 to September 30, 2005
                                                             Reports With Recommendations That
                                                                      Funds Be Put To Better Use



     TIGTA issued three reports with recommendations that funds be put to better use during this
     semiannual reporting period.1 The phrase “recommendation that funds be put to better use” means a
     recommendation that funds could be used more efficiently if management took actions to
     implement and complete the recommendation, including:
               •     reductions in outlays;
               •     deobligations of funds from programs or operations;
               •     costs not incurred by implementing recommended improvements related to operations;
               •     avoidance of unnecessary expenditures noted in pre-award reviews of contract
                     agreements;
               •     preventing erroneous payment of the following refundable credits: Earned Income Tax
                     Credit and Child Tax Credit; or,
               •     any other savings that are specifically identified.
     The phrase “management decision” means the evaluation by management of the findings and
     recommendations included in an audit report, and the issuance of a final decision concerning its
     response to such findings and recommendations, including actions concluded to be necessary.


                                        Reports With Recommendations That Funds Be Put To Better Use
                                                                                                    Amount
                                                  Report Category                      Number
                                                                                                (in thousands)

     1. Reports with no management decision at the beginning of the reporting period     2         $294,700
     2. Reports issued during the reporting period                                       3          $14,632
     3. Subtotals (Item 1 plus Item 2)                                                   5         $309,332
     4. Reports for which a management decision was made during the reporting period
          a. Value of recommendations to which management agreed
                     i. Based on proposed management action                              2           $4,774
                    ii. Based on proposed legislative action                             0               $0
             b. Value of recommendations to which management did not agree               2         $262,458
     5. Reports with no management decision at end of the
        reporting period (Item 3 minus Item 4)                                           1          $42,100
     6. Reports with no management decision within 6 months of issuance                  1          $42,100
     1
         See Appendix II for identification of audit reports involved.




April 1, 2005 to September 30, 2005                                                                              39
                             Reports With Additional Quantifiable Impact
                                                  On Tax Administration


     In addition to questioned costs and funds put     Revenue Protection: Proper denial of
     to better use, the Office of Audit has            claims for refunds, including
     identified measures that demonstrate the          recommendations that prevent erroneous
     value of audit recommendations to tax             refunds or efforts to defraud the tax system.
     administration and business operations. These
     issues are of interest to IRS and Treasury        Taxpayer Privacy and Security: Protection
     executives, Congress, and the taxpaying           of taxpayer financial and account information
     public, and are expressed in quantifiable         (privacy). Processes and programs that
     terms to provide further insight into the value   provide protection of tax administration,
     and potential impact of the Office of Audit’s     account information, and organizational
     products and services. Including this             assets (security).
     information also promotes adherence to the        Inefficient Use of Resources: Value of
     intent and spirit of the Government               efficiencies gained from recommendations to
     Performance and Results Act (GPRA).
                                                       reduce cost while maintaining or improving
                                                       the effectiveness of specific programs;
     Definitions of these additional measures are:     resources saved would be available for other
                                                       IRS programs. Also, the value of internal
     Taxpayer Rights and Entitlements at Risk:         control weaknesses that resulted in an
     The protection of due process rights granted
                                                       unrecoverable expenditure of funds with no
     to taxpayers by law, regulation, or IRS           tangible or useful benefit in return.
     policies and procedures. These rights most
     commonly arise when filing tax returns,           Protection of Resources: Safeguarding
     paying delinquent taxes, and examining the        human and capital assets, used by or in the
     accuracy of tax liabilities. The acceptance of    custody of the organization, from inadvertent
     claims for and issuance of refunds                or malicious injury, theft, destruction, loss,
     (entitlements) are also included in this          misuse, overpayment, or degradation.
     category, such as when taxpayers legitimately
     assert that they overpaid their taxes.            Reliability of Management Information:
                                                       Ensuring the accuracy, validity, relevance,
     Reduction of Burden on Taxpayers:                 and integrity of data, including the sources
     Decreases by individuals or businesses in the     of data and the applications and processing
     need for, frequency of, or time spent on          thereof, used by the organization to plan,
     contacts, record keeping, preparation, or costs   monitor, and report on its financial and
     to comply with tax laws, regulations, and IRS     operational activities. This measure will
     policies and procedures.                          often be expressed as an absolute value
                                                       (i.e., without regard to whether a number is
     Increased Revenue: Assessment or                  positive or negative) of overstatements or
     collection of additional taxes.
                                                       understatements of amounts recorded on the
                                                       organization’s documents or systems.




40                                                                  April 1, 2005 to September 30, 2005
     The number of taxpayer accounts and dollar values shown in the following chart were derived from
     analyses of historical data, and are thus considered potential barometers of the impact of audit
     recommendations. Actual results will vary depending on the timing and extent of management’s
     implementation of the corresponding corrective actions, and the number of accounts or subsequent
     business activities impacted from the dates of implementation. Also, a report may have issues that
     impact more than one outcome measure category.
             .


                                     Reports With Additional Quantifiable Impact On Tax Administration
                                                                   Number of               Number of                      Dollar Value
                 Outcome Measure Category                                                                                                         Other6
                                                                    Reports1           Taxpayer Accounts                (in thousands)

                                                                                                                                                      7
          Taxpayer Rights and Entitlements at Risk                        8                   2,318,624                      $270,608
                                                                                                                                                      8
          Reduction of Burden on Taxpayers                                5                     149,334

          Increased Revenue                                               7                              0               $71,347,7292

          Revenue Protection                                              3                           520                      $10,380

          Taxpayer Privacy and Security                                   1                            93

          Inefficient Use of Resources                                    3                              0                      $9,9423
                                                                                                                                                      9
          Protection of Resources                                         3                              0                      $6,7734
                                                                                                                                                     10
          Reliability of Management Information                           9                           437                    $521,9475
      1
          See Appendix II for identification of audit reports involved.
      2
          In one report (Reference No. 2005-30-073), IRS management did not agree that the reported benefit could be realized since backup withholding
          is already collected on cases meeting the criteria. In a second report (Reference No. 2005-30-080), IRS management did not concur with the
          reported benefit since it did not agree with the cause cited by TIGTA nor did it agree with the specific report recommendations. In a third report
          (Report No. 2005-40-106), IRS management believes that because of an incorrect assumption made by TIGTA, the reported benefit should be
          revised from $8.5 million to $676,000. In a fourth report (Report No. 2005-30-101), IRS management did not agree with the calculation of the
          reported outcome measure. In a fifth report (Report No. 2005-10-125), IRS management did not agree with the reported benefit because it
          believes that most of the penalties could be waived or abated due to the existing general reasonable cause standard. In a sixth report (Report
          No. 2005-30-142), IRS management stated that it could not measure the future value of the potential benefit. In a seventh report (Report No.
          2005-30-139), IRS management did not agree that $10.8 million in revenue would be lost due to the lack of documentation to support penalty
          abatements.
      3
          In one report (Reference No. 2005-30-049), IRS management believes that it achieved the benefits represented by the amount paid to the vendor.
          In a second report (Reference No. 2005-40-106), IRS management did not agree with the reported benefit because it was based on a
          recommendation to expand a current IRS compliance project.
      4
          In one report (Reference No. 2005-40-148), IRS management disagreed that the deviations from required security procedures, which affected
          payments totaling $5.7 million, is a valid representation because no taxpayer was adversely affected and the deviations did not impact the timely
          and accurate processing of the payment. In a second report (Reference No. 2005-10-163), IRS management stated that it located all but four of
          the 111 missing pocket commissions noted in the report. Further, it believes, based upon available documentation and statements from its
          personnel that it is very likely that all unissued and inactive commissions were destroyed.
      5
           In one report (Reference No. 2005-20-074), management disagreed that stakeholders should not rely upon the business case data and also did
          not agree that dollar cost savings could result from TIGTA's findings. In a second report (Report No. 2005-10-159), IRS management did not
          agree that the reported benefit would be realized by using exponential smoothing to forecast the return on additional investments in enforcement.
      6
          Some reports contained other quantifiable impacts besides the number of taxpayer accounts and dollar value. These outcome measures are
          described in the footnote, below.
      7
          Other measures of taxpayer rights and entitlements consist of 22,604 Notices of Federal Tax Lien in which taxpayers rights could be affected
          (Reference No. 2005-30-095).
      8
          Other measures of taxpayer burden consist of two publications that did not adequately address a revision to the Additional Child Tax Credit
          requirement (Reference No. 2005-40-094). IRS does not believe the omitted information would cause military personnel to claim less than the
          total credit to which they are rightfully entitled.
      9
          Other measures of protection of resources consist of 111 missing pocket commissions (Reference No. 2005-10-163).
     10
          Other measures of reliability of management information consist of 19 Internal Revenue Manual Sections with prohibited references to Illegal Tax
          Protestor designations (Reference No. 2005-40-104), an accuracy rate involving taxpayer requests for information that was overstated by
          6.13 percent (Reference No. 2005-10-166), and a total of 279 investigative equipment items not controlled or inaccurately shown on the Criminal
          Investigation Equipment Control System (Reference No. 2005-10-163).




April 1, 2005 to September 30, 2005                                                                                                                            41
                                                                          Investigations
                                                                     Statistical Reports


                                                                               Significant Investigative Achievements
                                                                                        April 1, 2005 – September 30, 2005

     Complaints/Allegations Received by TIGTA
             Complaints Against IRS Employees                                                                                2,400
             Complaints Against Non-Employees                                                                                1,783

             Total Complaints/Allegations                                                                                    4,183


     Status of Complaints/Allegations Received by TIGTA
             Investigations Initiated                                                                                        1,504
                                            1
             In Process within TIGTA                                                                                          211
             Referred to IRS for Action                                                                                       390
             Referred to IRS for Information Only                                                                             908
             Referred to a Non-IRS Entity2                                                                                      5
             Closed with no Referral                                                                                          893
             Closed with all Actions Completed                                                                                272

             Total Complaints                                                                                                4,183


     Investigations Opened and Closed
             Total Investigations Opened                                                                                     1,813
             Total Investigations Closed                                                                                     1,814


     Financial Accomplishments
             Embezzlement/Theft Funds Recovered                                                                         $3,695,558
             Court Ordered Fines, Penalties and Restitution                                                             $5,244,312
             Out-of-Court Settlements                                                                                           0
     1
         Complaints for which final determination had not been made at the end of the reporting period.
     2
         A non-IRS entity includes other law enforcement entities or Federal agencies.

     Note: The IRS made 104 referrals to TIGTA that would more appropriately be handled by the IRS, and therefore
     were returned to the IRS. These are not included in the total complaints/allegations shown above.




42                                                                                                        April 1, 2005 to September 30, 2005
                                                                                  Status of Closed Criminal Investigations
      Criminal Referrals1                                                            Employee               Non-Employee                      Total
             Referred – Accepted for Prosecution                                              26                           76                   102
             Referred – Declined for Prosecution                                             398                         291                    689
             Referred – Pending Prosecutorial Decision                                          8                          42                        50

      Total Criminal Referrals                                                               432                         409                    841

      No Referral                                                                            527                         471                    998
      1
          Criminal referrals include both Federal and State dispositions.




                                                                                                                  Criminal Dispositions2
                                                                                     Employee               Non-Employee                      Total
      Guilty                                                                                 29                          64                          93
      Nolo-Contendere (no contest)                                                             0                          3                          3
      Pre-trial Diversion                                                                      3                         14                          17
                                     3
      Deferred Prosecution                                                                     0                          1                          1
      Not Guilty                                                                               0                          0                          0
                       4
      Dismissed                                                                                2                         12                          14

      Total Criminal Dispositions                                                            34                          94                     128
      2
        This chart includes statistics on final criminal dispositions during the reporting period. This data may pertain to investigations referred
        criminally in prior reporting periods and do not necessarily relate to the investigations referred criminally in the Status of Closed Criminal
        Investigations table above.
      3
        Generally in a deferred prosecution, the defendant accepts responsibility for his/her actions, and complies with certain conditions imposed by
        the court. Upon defendant’s completion of the conditions, the court dismisses the case. If the defendant fails to fully comply, the court
        reinstates prosecution of the charge.
      4
        Court dismissed charges.




                                         Administrative Dispositions on Closed TIGTA Investigations5
                                                                                                                                              Total
      Removed, Terminated or Other                                                                                                              276
      Suspended/Reduction in Grade                                                                                                                   83
      Oral or Written Reprimand/Admonishment                                                                                                         97
      Closed – No Action Taken                                                                                                                  199
      Clearance Letter Issued                                                                                                                   120
      Employee Resigned Prior to Adjudication                                                                                                   165

      Total Administrative Dispositions                                                                                                         940
      5
          This chart includes statistics on final administrative dispositions during the reporting period. This data may pertain to investigations
          referred administratively in prior reporting periods and does not necessarily relate to the investigations closed in the Investigations
          Opened and Closed statistics on page 42.




April 1, 2005 to September 30, 2005                                                                                                                       43
          "…It was as true . . .
               as taxes is.
     And nothing's truer than them."




           Charles Dickens




44                                 April 1, 2005 to September 30, 2005
                                                        Appendix I
                                               Statistical Reports
                                                            - Other


                                                   Audit Reports With Significant
                                               Unimplemented Corrective Actions
     The Inspector General Act of 1978 requires identification of significant recommendations described in
     previous semiannual reports in which corrective actions have not been completed. The following list is
     based on information from the IRS Office of Management Control’s automated tracking system maintained
     by Treasury management officials.




                                   Projected            Report Title and Recommendation Summary
      Reference                   Completion        (F = Finding Number, R = Recommendation Number,
       Number        Issued          Date                             P = Plan Number)
         093602      April 1999                  The Internal Revenue Service Needs To Improve Treatment of Taxpayers During
                                                 Office Audits

                                    10/01/05     F-1, R-4, P-2. Ensure that all MACS data discs forwarded from the MACS
                                                 Development Center to district offices are properly accounted for and secured.

       2000-30-059   March 2000                  The Internal Revenue Service Can Improve the Estate Tax Collection Process

                                    09/15/05     F-2, R-2, P-1. Develop procedures to periodically reconcile tax liens on the ALS with
                                                 information shown on the taxpayer accounts.
                                    09/15/05     F-2, R-3, P-1. Clarify procedures to employees that all estate tax liens should be
                                                 recorded on the ALS.
       2000-30-130   September                   Opportunities Exist to Enhance the International Field Assistance Specialization
                       2000                      Program

                                    10/15/05     F-2, R-1, P-1. Improve the management information system by linking the
                                                 International Field Assistance Specialization Program indicator to specific issues listed
                                                 in the International Case Management System.

       2000-30-162   September                   The Internal Revenue Service Needs to Better Address Bankruptcy Automatic Stay
                       2000                      Violations

                                    11/15/06     F-1, R-2, P-1. Provide additional computer programming enhancements to improve
                                                 the value of litigation transcripts.




April 1, 2005 to September 30, 2005                                                                                                          45
                                    Projected          Report Title and Recommendation Summary
     Reference                     Completion      (F = Finding Number, R = Recommendation Number,
      Number        Issued            Date                           P = Plan Number)
     2001-30-052    March 2001                  Program Improvements Are Needed to Encourage Taxpayer Compliance in
                                                Reporting Foreign Sourced Income

                                     01/15/06   F-1, R-1, P-1. Ensure the prior recommendations are implemented. Establishing a
                                                formal program with goals, objectives, processes and measures could help ensure that
                                                sufficient management attention is devoted to improving the use of the Routine
                                                Exchange of Information Program for compliance.
                                     01/15/06   F-2, R-1, P-1. Identify the highest risk foreign sourced income documents and use
                                                them to coordinate with tax treaty partners to positively identify the U.S. taxpayers
                                                involved.
                                     01/01/07   F-3, R-1, P-1, P-2. Improve systems that process data the IRS receives on foreign
                                                sourced income.

     2002-30-156    September                   The Internal Revenue Service Does Not Penalize Employers that File Wage and Tax
                      2002                      Statements with Inaccurate Social Security Numbers

                                     10/15/05   F-1, R-1, P-1. Ensure that the IRS initiate, as proposed in their response to our
                                                memorandum dated February 1, 2002, a regularly scheduled program for proposing
                                                penalties for Forms W-2 with inaccurate name/SSN combinations.

     2003-20-049   February 2003                Employee Background Investigations Were Normally Completed; However, the
                                                Contractor Employee Background Investigation Program Needs Improvement

                                     12/15/05   F-2, R-5, P-2. Ensure that personnel in the Real Estate and Facilities area of the
                                                Agency-wide Shared Services are adequately trained regarding the requirements for
                                                issuing a contractor employee an IRS identification badge.
                                     10/15/05   F-3, R-1, P-1. Ensure that a consolidated or integrated system is implemented to
                                                effectively manage all background investigations and identification badges,
                                                incorporating the needs of all stakeholders and eliminating the use of stand-alone
                                                systems such as the Security Entry Tracking System and the Procurement Background
                                                Investigation Program.
                                     10/15/05   F-3, R-2, P-1. Ensure that until a single system is implemented, all COTRs are
                                                required to use the Procurement Background Investigation Program regardless of their
                                                organizational placement, and complete periodic reconciliations between the contractor
                                                employee background investigation information and the identification badge
                                                information at each IRS facility are conducted to detect the issuance of contractor
                                                employee identification badges without completion of required background
                                                investigations.
     2003-10-054    March 2003                  The Internal Revenue Service Needs to Establish an Effective Process to Accurately
                                                Identify, Record, and Report Unemployment Trust Fund Administrative Expenses

                                     10/01/07   F-1, R-3, P-1. Ensure that the ability to record and report trust fund administrative
                                                expenses, as currently envisioned in the IFS development plans, is properly
                                                implemented.


     2003-10-094    March 2003                  Improvements Are Needed in the Monitoring of Criminal Investigation Controls
                                                Placed on Taxpayers’ Accounts When Refund Fraud is Suspected

                                     12/15/05   F-1, R-2, P-1. Ensure that regular reviews of the Questionable Refund Program are
                                                conducted to assess compliance with procedures and that feedback is provided
                                                regarding program effectiveness. Also, analyses of the FDCs’ control listing data
                                                should be analyzed to ensure reviews are done and accounts are resolved.

     2003-40-139    June 2003                   Opportunities Exist to Improve the Administration of the Earned Income Tax Credit

                                     01/15/06   F-1, R-2, P-1. Establish a consistent method to measure progress toward the EITC
                                                Program’s long-term goals.




46                                                                                    April 1, 2005 to September 30, 2005
                                     Projected          Report Title and Recommendation Summary
      Reference                     Completion      (F = Finding Number, R = Recommendation Number,
       Number         Issued           Date                           P = Plan Number)
       2003-20-118    July 2003                  Security Over Computers Used in Telecommuting Needs to Be Strengthened

                                      01/15/08   F-1, R-6, P-1. Require front-line managers to periodically check their employees’
                                                 laptop computers to ensure that sensitive data are being stored and encrypted properly.
                                      12/15/06   F-2, R-2, P-1, P-2. Consider installing personal firewall and IDS software on SDI
                                                 laptop computers and require CSIRC to centrally monitor the generated logs.


       2003-30-162   August 2003                 The Regulations for Granting Extensions of Time to File are Delaying the Receipt of
                                                 Billions of Tax Dollars and Creating Substantial Burden for Compliant Taxpayers

                                      08/15/05   F-1, R-1, P-1. Revise the tax regulations applicable to individual taxpayers.
                                      11/15/05   F-1, R-3, P-1. Revise the tax package instructions.


       2003-30-176   August 2003                 Interest Paid to Large Corporations Could Significantly Increase Under a Proposed
                                                 New Revenue Procedure

                                      11/15/05   F-1, R-2, P-1. Gather pertinent information concerning the effected proposed
                                                 procedure on reducing the length of examinations and interest costs by conducting a
                                                 pilot program to demonstrate the actual benefits that could be achieved.

       2003-40-180   August 2003                 More Information Is Needed to Determine the Effect of the Automated
                                                 Underreporter Program on Improving Voluntary Compliance

                                      07/15/06   F-2, R-1, P-1. Improve the current management information system process to capture
                                                 data sufficient to establish baselines and long-term measures and goals.

       2003-10-201    September                  Lead Development Centers Do Not Significantly Contribute to Increases in Legal
                        2003                     Source Cases

                                      03/15/06   F-3, R-1, P-1. Ensure that the data in the LDC database are consistent and issue
                                                 instructions on how to use the LDC database.
       2003-10-212    September                  Information on Employee Training Is Not Adequate to Determine Training Cost or
                        2003                     Effectiveness

                                      03/31/06   F-3, R-2, P-1, P-2, P-3, P-4. Ensure that IRS training and financial systems can
                                                 provide information needed for the IRS to assess its own training efforts.
       2003-20-219    September                  The Cost and Schedule Estimation Process for the Business Systems Modernization
                        2003                     Program Has Been Improved, But Additional Actions Should Be Taken

                                      01/01/06   F-1, R-4, P-1. Ensure that the SEI is requested to conduct an independent review of the
                                                 cost and schedule estimation system once the initial validation is complete, and policies
                                                 and procedures are fully implemented.


       2004-20-001   October 2003                Risks Are Mounting As the Integrated Financial System Project Team Strives to
                                                 Meet An Aggressive Implementation Date

                                      12/31/10   F-2, R-1, P-1. Ensure the disaster recovery environment is completely built-out and
                                                 tested.

       2004-40-004   October 2003                The Selection of Earned Income Tax Credit Returns for Examination can Be
                                                 Improved to Further Prevent Payment of Erroneous Claims

                                      02/15/06   F-1, R-1, P-1. Complete an analysis of the historical Dependent Database examination
                                                 data to determine if there is a relationship between the direct examination time, rules
                                                 identified, and disposition of examinations.
                                      02/15/06   F-1, R-2, P-1. Incorporate a cost benefit analysis into the Dependent Database Risk-
                                                 Based Scoring Model.




April 1, 2005 to September 30, 2005                                                                                                          47
                                   Projected          Report Title and Recommendation Summary
     Reference                    Completion      (F = Finding Number, R = Recommendation Number,
      Number        Issued           Date                           P = Plan Number)
     2004-40-013    November                   Improvements Are Needed in the Screening and Monitoring of E-File Providers to
                      2003                     Protect Against Filing Fraud

                                    01/01/07   F-1, R-2, P-1. Enhance the screening procedures for E-File Providers to include
                                               sending scanned fingerprints to the FBI electronically.

     2004-30-038   January 2004                Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                                               Additional Enhancements Are Needed

                                    12/15/05   F-3, R-1, P-1. Develop an Activity Based Costing system that reliably captures and reports
                                               both the total cost and the cost-per-call of providing services on each
                                               toll-free product line.

     2004-30-068   March 2004                  Additional Efforts Are Needed to Improve the Bank Secrecy Act Compliance
                                               Program

                                    02/15/06   F-2, R-1, P-1. Develop standard risk-based case selection criteria that would provide
                                               minimum requirements and parameters for case selection.
                                    04/15/06   F-2, R-2, P-1. Reinforce the importance of case documentation with specific
                                               instructions or case models and implement a centralized quality review process.

     2004-40-098    May 2004                   Better Use of the National Account Profile During Returns Processing Can
                                               Eliminate Erroneous Payments

                                    01/15/06   F-2, R-1, P-1. Conduct studies on the accuracy of EITC claims on tax returns for
                                               individuals that have been claimed for EITC purposes that are 20 or more years older
                                               than the primary taxpayer, or are listed as children that are up to 19 years older than the
                                               primary taxpayer.

     2004-30-106    June 2004                  Changes to the Regulations for Granting Extensions of Time to File Corporate Tax
                                               Returns Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                    10/15/05   F-1, R-1, P-1. Revise the tax regulations applicable to corporations to eliminate the
                                               requirement that corporations make tentative estimates of their tax liabilities to obtain an
                                               extension of time to file.
                                    10/15/05   F-1, R-2, P-1. Revise the tax regulations applicable to corporations to grant extensions of
                                               time to file only to payment-compliant corporations.
                                    10/15/05   F-1, R-4, P-1. Revise the tax regulations applicable to corporations to establish safeguards to
                                               protect reasonably compliant corporations from unwarranted assessments of the delinquency
                                               penalty.
                                    10/15/05   F-1, R-5, P-1. Revise the tax regulations applicable to corporations to provide for the
                                               assessment of the delinquency penalty on all taxes not paid by the normal tax return due date.
                                    10/15/05   F-1, R-7, P-1. Consider changing the regulations to eliminate the requirement that taxable
                                               corporations must apply to the IRS to receive extensions of time to file tax returns.
                                    10/15/05   F-1, R-8, P-1. Develop a legislative proposal for submission to the Treasury Department to
                                               change the Internal Revenue Code to require assessments of the higher interest and Failure to
                                               Pay penalties.


     2004-30-127   August 2004                 The Return Delinquency Notice Program Could Be Used More Effectively to
                                               Promote Filing Compliance and Reduce the Tax Gap

                                    01/15/07   F-2, R-1, P-1, P-2. Reevaluate the administrative dollar tolerance for freezing refunds
                                               to determine if it can be reset at a lower level.




48                                                                                     April 1, 2005 to September 30, 2005
                                    Projected             Report Title and Recommendation Summary
      Reference                    Completion         (F = Finding Number, R = Recommendation Number,
       Number         Issued          Date                              P = Plan Number)
       2004-20-129   August 2004                   The Certification and Accreditation of Computer Systems Should Remain in the
                                                   Computer Security Material Weakness

                                     12/31/05      F-1, R-1, P-2. Keep the certification and accreditation of computer systems as part of
                                                   the computer security material weakness until a sufficient number of systems have
                                                   been certified and accredited.
                                     01/15/06      F-1, R-3, P-1. Establish a formal process to monitor accreditations and report
                                                   noncompliance to ensure accreditations are completed.

       2004-20-135   August 2004                   The Audit Trail System for Detecting Improper Activities on Modernized Systems Is
                                                   Not Functioning

                                     04/01/06      F-1, R-1, P-1. Ensure that Security Audit and Analysis System (SAAS) performance
                                                   and functionality requirements are adequately tested and implemented so the IRS and
                                                   TIGTA can perform queries and generate audit trail reports.
                                     12/15/05      F-1, R-2, P-1. Ensure alternatives are developed for reviewing audit trails for
                                                   modernized application in the event that SAAS deficiencies cannot be corrected.
                                     10/15/05      F-2, R-1, P-1. Ensure that SAAS operating procedures are fully developed and
                                                   finalized so that business units can conduct effective and efficient audit trail reviews of
                                                   modernized applications.

       2004-20-131   September                     The Use of Audit Trails to Monitor Key Networks and Systems Should Remain Part
                       2004                        of the Computer Security Material Weakness

                                     01/01/06      F-2, R-2, P-1. Keep the audit trail area as part of the computer security material
                                                   weakness until critical applications are removed from Tier 2 unconsolidated UNIX
                                                   servers or consolidated into a more secure environment.
                                     03/01/06      F-2, R-4, P-1. Develop and implement a reasonable approach for reviewing audit trails
                                                   over major applications.

       2004-30-133   September                     The Controls for Examination Processes for Industry Cases With International
                       2004                        Transfer Pricing Issues Can Be Improved

                                     10/15/05      F-1, R-1, P-1. Reemphasize the Transfer Pricing Compliance Directive and
                                                   incorporate it into the Internal Revenue Manual.

       2004-20-155   September                     Computer Security Roles and Responsibilities and Training Should Remain Part of
                       2004                        the Computer Security Material Weakness

                                     10/15/05      F-1, R-1, P-1. Keep security roles and responsibilities as part of the computer security
                                                   material weakness until corrective actions related to recommendations in a previous
                                                   report have been addressed.
                                     10/15/05      F-2, R-1, P-1. Complete actions to correct weaknesses regarding segregation of duties
                                                   and remove this area from the computer security material weakness.
                                     10/15/05      F-3, R-2, P-1. Establish a process to identify employees with key security
                                                   responsibilities, monitor their participation in training courses, and follow up with
                                                   managers, if necessary.
                                   P-1: 10/15/05   F-3, R-3, P-1, P-2, P-3. Ensure that employees with key security responsibilities are
                                   P-2: 11/01/05   adequately trained to perform security duties and tasks.
                                   P-3: 12/15/05




April 1, 2005 to September 30, 2005                                                                                                              49
                                   Projected             Report Title and Recommendation Summary
     Reference                    Completion         (F = Finding Number, R = Recommendation Number,
      Number        Issued           Date                              P = Plan Number)
     2004-20-158    September                     Network Access, System Access, and Software Configuration Should Remain Part of
                      2004                        the Computer Security Material Weakness

                                    10/15/05      F-1, R-1, P-1. Keep the network access control area as part of the computer security
                                                  material weakness until the IRS can demonstrate a repeatable process for ensuring
                                                  router configurations are secure.
                                    10/15/05      F-2, R-1, P-1. Keep any applications and system access as part of the computer
                                                  security material weakness until the IRS has demonstrated an effective, repeatable
                                                  process for testing and correcting vulnerabilities.
                                  P-1: 12/15/05   F-2, R-4, P-1, P-3. Test operating system access controls on CI, Counsel, and Appeals
                                  P-3: 12/31/10   function systems.
                                    12/31/10      F-2, R-5, P-1. Test access controls on key applications to ensure compliance with
                                                  standards and ensure that vulnerabilities are timely corrected.
                                    10/15/05      F-3, R-1, P-1. Keep system software configuration as part of the computer security
                                                  material weakness until configuration management procedures are implemented and
                                                  working as intended in the UNIX environment.
     2004-10-166    September                     The Taxpayer Advocate Service Needs to Improve Case Management to Ensure
                      2004                        Taxpayer Problems Are Resolved Timely

                                    01/30/06      F-1, R-2, P-4. Provide training to case advocates on the requirement to develop and
                                                  document case action plans at the beginning of each case.
                                    12/15/05      F-2, R-1, P-1. Alert TAS managers that case advocates are not closing cases after all
                                                  actions are completed.
                                    06/30/06      F-3, R-1, P-4. Provide additional guidance to case advocates on communicating with
                                                  IRS operating divisions to coordinate case resolution and set achievable deadlines for
                                                  completing Operations Assistance Requests.
     2004-10-182    September                     The Internal Revenue Service Faces Significant Challenges to Reduce Underused
                      2004                        Office Space Costing $84 Million Annually

                                    10/15/05      F-1, R-2, P-1. Justify the funding request for space for anticipated new hires by
                                                  maximizing the use of existing space to house the new employees and determine the
                                                  funding request based on anticipated needs.
                                    10/01/06      F-2, R-3, P-1. Consider allocating rent funds to the operating divisions to help ensure
                                                  more efficient use of space and more communication between the facility managers
                                                  and the local operating divisions; consider incentives and consequences to ensure better
                                                  cooperation.
                                    10/15/06      F-3, R-1, P-1. Require facility managers to report vacancies based on division
                                                  requirements for telecommuting employees.
     2005-40-015    December                      Application of the Earned Income Credit Two-Year Ban Could Be More Consistent,
                      2004                        Accurate, and Clear to Taxpayers

                                    02/15/06      F-1, R-2, P-1. Consider using available data to identify Earned Income Credit (EIC)
                                                  examination cases with apparent abuse before taxpayers are contacted.

     2005-40-017    December                      The Health Coverage Tax Credit Was Accurately Processed During the 2004 Filing
                      2004                        Season

                                    02/15/06      F-2, R-1, P-1. Review the issue of the Health Coverage Tax Credit disallowances and
                                                  determine if action by Congress is necessary.

     2005-40-025   January 2005                   Opportunities Exist to Improve Tax Software Packages

                                    01/15/06      F-1, R-1, P-1. Develop procedures to ensure that electronic file specifications are
                                                  reviewed for accuracy and consistency.




50                                                                                     April 1, 2005 to September 30, 2005
                                      Projected                  Report Title and Recommendation Summary
      Reference                      Completion              (F = Finding Number, R = Recommendation Number,
       Number         Issued            Date                                   P = Plan Number)
       2005-40-026   February 2005                        Processes Used to Ensure the Accuracy of Information for Individual Taxpayers on
                                                          IRS.GOV Need Improvement

                                       P-2: 04/01/06      F-1, R-1, P-2, P-4. Develop a process to ensure that only authorized personnel have
                                       P-4: 12/31/10      access to IRS.gov content.
                                     P-1, P-2: 12/31/10   F-1, R-2, P-1, P-2. Enhance the IRS’ content management software application to
                                                          provide the ability to identify specific content accessed or revised by individual users.

       2005-10-035   February 2005                        Review of the Exempt Organizations Function Process for Reviewing Alleged
                                                          Campaign Intervention by Tax Exempt Organizations

                                         01/15/06         F-1, R-2, P-1. Ensure that time standards for accelerated case initiation are realistic for
                                                          future election years based on available resources and priorities.
                                         01/15/06         F-1, R-4, P-1. Ensure that any future expedited review process is initiated early enough
                                                          in an election year to ensure classification and examination actions are completed
                                                          timely and consistently.

       2005-10-037   February 2005                        The Department of the Treasury’s HR Connect Human Resources System Was Not
                                                          Effectively Implemented

                                         02/14/05         F-3, R-1, P-1. Account for the HR Connect system costs and assess the likelihood of
                                                          projected benefits based on the system’s limitations, and an assessment of the
                                                          economic systems life so that future decisions are based on correct information.

       2005-20-024    March 2005                          The Disaster Recovery Program Has Improved, But It Should Be Reported as a
                                                          Material Weakness Due to Limited Resources and Control Weaknesses

                                     P-1, P-5: 12/31/10   F-1, R-1, P-1, P-2, P-4, P-5. Report a disaster recovery program material weakness to
                                     P-2, P-4: 11/15/05   the Department of the Treasury as part of the IRS’ Federal Managers’ Financial
                                                          Integrity Act of 1982 annual evaluation of controls and include any new or currently
                                                          underway activities in the corrective action plan.
                                         12/31/10         F-1, R-2, P-1. Implement procedures to analyze system weaknesses for systemic
                                                          problems and elevate them as program-level weaknesses.

       2005-40-039    March 2005                          The Earned Income Credit Recertification Program Continues to Experience
                                                          Problems

                                         12/15/05         F-1, R-3, P-1. Ensure that required quality reviews of non-examined closures are
                                                          performed, the results are evaluated, and corrective actions are taken, if appropriate.
                                         02/15/06         F-3, R-1, P-1. Revise communications to taxpayers to specifically inform them when
                                                          they are recertified and notify potentially eligible taxpayers subject to recertification
                                                          that they may still be entitled to the income-only EIC.
                                         02/15/06         F-4, R-1, P-1. Change computer programming, where appropriate, so electronically
                                                          filed returns claiming income-only EIC are not rejected because Forms 8862 are not
                                                          filed.




April 1, 2005 to September 30, 2005                                                                                                                     51
                                 Projected          Report Title and Recommendation Summary
     Reference                  Completion      (F = Finding Number, R = Recommendation Number,
      Number       Issued          Date                           P = Plan Number)
     2005-30-048   March 2005                Stronger Sanctions Are Needed to Encourage Timely Filing of Pass Through
                                             Returns and Ensure Fairness in the Tax System

                                  10/15/05   F-1, R-3, P-1. Develop a legislative proposal to be submitted to the Department of the
                                             Treasury that would amend Internal Revenue Code (I.R.C.) § 6698 to increase the
                                             penalty for late-filed partnership returns from $50 per partner per month to $200 per
                                             partner per month.
                                  10/15/05   F-1, R-4, P-1. Develop a legislative proposal to be submitted to the Department of the
                                             Treasury that would amend I.R.C. § 6698 to remove the five-month limitation on the
                                             number of months of delinquency that the late-filing penalty is assessed on partnership
                                             returns.
                                  10/15/05   F-1, R-5, P-1. Develop a legislative proposal to be submitted to the Department of the
                                             Treasury that would amend I.R.C. § 6698 to make all requirements of the law
                                             applicable to S corporations as well as partnerships.
                                  10/15/05   F-1, R-6, P-1. Develop a legislative proposal to be submitted to the Department of the
                                             Treasury that would amend I.R.C. § 6721 to require the assessment of a $200 penalty
                                             per Schedule K-1 for the failure to timely provide Schedules K-1 to the IRS when a
                                             partnership or S corporation return is filed late.
                                  10/15/05   F-1, R-7, P-1. Develop a legislative proposal to be submitted to the Department of the
                                             Treasury that would amend I.R.C. § 6722 to require the assessment of a $200 penalty
                                             per Schedule K-1 for the failure to timely provide Schedules K-1 to payees when a
                                             partnership or S corporation return is filed more than seven days beyond the return due
                                             date.
                                  10/15/05   F-1, R-8, P-1. Conduct a study to determine whether fixed-dollar penalties set at a
                                             $200 level in I.R.C. § 6698, 6721, and 6722 will be effective in ensuring future
                                             compliance or whether other penalty types and/or higher amounts would be more
                                             effective.
     2005-30-052   March 2005                Procedures Regarding the Failure to Pay Tax Penalty Result in Inconsistent
                                             Treatment of Taxpayers and Hundreds of Millions of Dollars in Lost Revenue

                                  01/15/06   F-1, R-1, P-1. Request programming changes that would cause accrued Failure to Pay
                                             (FTP) tax penalties to be assessed on a periodic basis.
                                  01/15/06   F-1, R-2, P-1. Request clarifying legislation regarding the need for separate notices to
                                             be issued to taxpayers each time FTP tax penalties are assessed and interest is charged
                                             on the penalties.
                                  01/15/06   F-1, R-3, P-1. Ensure that notices containing FTP tax penalty assessments include
                                             information informing taxpayers that interest is being charged on the FTP tax penalties
                                             until they are fully paid.

     2005-30-053   March 2005                Opportunities Exist to Improve the Effectiveness and Efficiency of the Automated
                                             6020(b) Program

                                  01/15/06   F-1, R-1, P-1. Replace the computer system supporting the Automated 6020(b)
                                             Program.
                                  01/15/06   F-2, R-1, P-1. Raise the dollar level of the risk-based criteria for stand-alone Taxpayer
                                             Delinquency Investigation (TDI) cases as a means of increasing the workload coming
                                             into the Automated 6020(b) Program with cases that would otherwise remain
                                             unworked in the Queue.
                                  01/15/06   F-2, R-2, P-1. Modify the programming to add TDIs involving excise tax returns to the
                                             Automated 6020(b) Program.

     2005-10-070   March 2005                The Human Resources Investment Fund is Not a Cost-Effective Method of
                                             Providing Tuition Assistance

                                  04/15/06   F-2, R-1, P-1. Consider eliminating the Human Resources Investment Fund (HRIF)
                                             Program and provide tuition assistance through alternative means such as the
                                             Individual Development Plan process and the Career Transition Assistance Program.




52                                                                                April 1, 2005 to September 30, 2005
     Other Statistical Reports
     The Inspector General Act of 1978 requires Inspectors General to address the following issues:

        Access to Information
        Report unreasonable refusals of information available to the agency that relate to programs and
        operations for which the Inspector General has responsibilities. As of September 30, 2005, there
        were no instances where information or assistance requested by the Office of Audit was refused.

        Disputed Audit Recommendations
        Provide information on significant management decisions in response to audit recommendations with
        which the Inspector General disagrees. As of September 30, 2005, there were no reports issued where
        a significant recommendation was disputed.

        Revised Management Decisions
        Provide a description and explanation of the reasons for any significant revised management
        decisions made during the reporting period. As of September 30, 2005, no significant
        management decisions were revised.

        Audit Reports Issued in the Prior Reporting Period With No Management Response
        Provide a summary of each audit report issued before the beginning of the current reporting
        period for which no management response has been received by the end of the current reporting
        period. As of September 30, 2005, there were no prior reports where management’s response was
        not received.

        Review of Legislation and Regulations
        Review existing and proposed legislation and regulations, and make recommendations concerning
        the impact of such legislation or regulations. TIGTA’s Office of Chief Counsel reviewed 156
        proposed regulations and legislative requests during this reporting period.




April 1, 2005 to September 30, 2005                                                                           53
     "When there is an income tax,
       the just man will pay more
           and the unjust less
     on the same amount of income."




                 Plato




54                                  April 1, 2005 to September 30, 2005
                                                                       Appendix II
                                                                    Audit Products

                                          April 1, 2005 – September 30, 2005

                                                       Inspector General Congressional Testimony
      Reference
       Number                                        Hearing Title
                                                       April 2005
     2005-OT-085   The Internal Revenue Service’s Fiscal Year 2006 Budget Request
     2005-OT-082   The $350 Billion Question: How to Solve the Tax Gap
                                                        May 2005
     2005-OT-092   Hearing Before the Joint Congressional Review of the Internal Revenue Service
     2005-OT-099   S Corporation tax loophole
                                                       June 2005
     2005-OT-134   Tax Refund Fraud by Federal and State Prisoners




                                                                                                      Audit Products
      Reference
       Number                                         Report Title
                                                       April 2005

    2005-1C-046    Report on Audit of Contractor’s Compliance With Cost Accounting Standard 420, Accounting for Independent
                   Research and Development and Bid and Proposal Costs
    2005-1C-059    Audit of Fiscal Year 2005 Forward Pricing Direct Labor Rates

    2005-20-071    The Chief Information Officer Is Taking Steps to Timely Complete Corrective Actions to Treasury Inspector
                   General for Tax Administration Reports
    2005-40-062    The Internal Revenue Service’s Implementation of the Improper Payments Information Act Is Progressing
    2005-10-076    Voucher Audit of the Treasury Information Processing Support Services Contract – TIRNO-00-D-00014
                   The Small Business/Self-Employed Division Has Made Significant Changes to Enhance the Automated
    2005-30-073    Substitute for Return Program, but Opportunities Exist for Further Improvement (Increased Revenue:
                   $45 million) Note: monetary benefit projected over a five-year period.

    2005-40-077    Taxpayers Identified As Serving in Combat Zones Were Properly Afforded Tax Benefits, but Account
                   Identification and Maintenance Processes Need Improvement
                   Business Cases for Information Technology Projects Need Improvement (Reliability of Information:
    2005-20-074
                   $339.4 million in project costs not accurately reported)




April 1, 2005 to September 30, 2005                                                                                            55
                                                         May 2005
                   The Innocent Spouse Centralized Review Function Ensured Accurate Relief Determinations, but
     2005-40-075   Improvements Could Increase Customer Service (Taxpayer Burden: 113 taxpayers burdened by unclear
                   correspondence or not having all issues addressed)
                   The Accounts Management Program Has Annual Performance Goals but Should Develop Long-Term
     2005-40-079
                   Performance Goals
                   The Business Systems Development Organization’s Effective Process for Developing Information Systems
     2005-20-061
                   Requirements Can Be Made More Efficient by Tracking and Analyzing Related Costs
                   Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities From Fiscal
     2005-10-081
                   Year 1999 Through Fiscal Year 2004
                   Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole Proprietorships and
     2005-30-080   Single-Shareholder S Corporations (Increased Revenue: $61 billion) Note: monetary benefit projected over a
                   five-year period
                   While Many Improvements Have Been Made, Continued Focus Is Needed to Improve Contract Negotiations
                   and Fully Realize the Potential of Performance-Based Contracting (Questioned Costs: $825,164; Reliability of
     2005-20-083
                   Information: $268,000 in costs for additional staff because data needed to estimate sufficient time for contract
                   negotiations were not available)
                   Some Improvements Have Been Made to Better Comply With Freedom of Information Act Requirements
     2005-10-089   (Taxpayer Rights and Entitlements: 2,282 incomplete or untimely IRS responses to FOIA, Privacy Act and
                   I.R.C. Section 6103 requests)
                   Performance Management in the Large and Mid-Size Business Division’s Industry Case Program Needs
     2005-30-084
                   Strengthening
     2005-40-093   The Earned Income Tax Credit Income Verification Test Was Properly Conducted
                   Improvements Are Needed in the Exempt Organizations Compliance Unit to Better Support the Exempt
     2005-10-078   Organizations Function’s Overall Strategic Goals (Reliability of Information: 432 cases corrected to include
                   more descriptive disposal codes)
                   Taxpayer Remittances Were Generally Safeguarded Within the Ogden Submission Processing Site; However,
     2005-30-086
                   Some Security Vulnerabilities Exist
                                                         June 2005
     2005-30-072   Taxpayer Rights Are Being Protected When Levies Are Issued
                   Changes to Processing Procedures and Line Descriptions on the Form 1040 Would Reduce Erroneous
     2005-30-090   Claims for Some Refundable Credits (Revenue Protection: $3.9 million on 366 taxpayer returns)
                   Note: monetary benefit projected over a five-year period.
                   Fiscal Year 2005 Review of Compliance With Legal Guidelines When Conducting Seizures of
     2005-30-091   Taxpayers’ Property (Taxpayer Rights and Entitlements: 17 taxpayers where the IRS did not comply with
                   legal and internal procedures or where internal procedures can be improved regarding seizures)
                   Forms, Publications, and Computer Programming Requests Were Adequately Addressed and Updated in
     2005-40-094   Most Instances for the 2005 Filing Season (Taxpayer Burden: two publications did not adequately
                   address revision to an Additional Child Tax Credit requirement)
                   The Implementation of the Offer in Compromise Application Fee Reduced the Volume of Offers Filed by
     2005-30-096
                   Taxpayers at All Income Levels
                   Fiscal Year 2005 Statutory Review of Compliance With Lien Due Process Procedures (Taxpayer Rights
     2005-30-095
                   and Entitlements: 22,604 Notices of Federal Tax Liens with potential violations of taxpayer rights)
     2005-1C-063   Audit of Estimating System and Related Internal Controls
     2005-1C-060   Incurred Costs Audit for Fiscal Year Ended March 31, 2003
     2005-1C-064   Report on Audit of Indirect and Other Direct Cost System
                                                           July 2005
     2005-20-100   Security Controls for the Taxpayer Advocate Management Information System Could Be Improved
                   Fiscal Year 2005 Statutory Audit of Compliance With Legal Guidelines Prohibiting the Use of Illegal
                   Tax Protester and Similar Designations (Taxpayer Rights and Entitlements: 309 taxpayers improperly
     2005-40-104
                   identified; Reliability of Information: 19 Internal Revenue Manual subsections with prohibited references
                   to Illegal Tax Protester Designations)
     2005-10-105   Alternate Strategies Are Needed for Upgrading Campus Facilities




56                                                                                       April 1, 2005 to September 30, 2005
     2005-10-107   Improved Policies and Guidance Are Needed for the Telework Program
     2005-1C-065   TIRNO-92-C-0014 Incurred Cost Audit for Fiscal Year 2001
                   A Test of the Private Sector’s Ability to Provide Tax Law Telephone Assistance Did Not Produce
     2005-30-049   Sufficient Information to Support a Competitive Sourcing Decision (Inefficient Use of Resources:
                   $675,140)
     2005-20-097   Managers and System Administrators Need to Limit Employees’ Access to Computer Systems
                   TIRNO-00-D-00018, TIRNO-99-D-00018, TIRNO-99-D-0001, TIRNO-02-K-00055,
     2005-1C-066
                   TIRNO-02-K-00051 Incurred Cost Audit for Fiscal Year 2002
     2005-1C-067   Report on Audit of Purchasing System
     2005-20-108   More Management Attention Is Needed to Protect Critical Assets
                   Individual Income Tax Return Information Was Accurately and Timely Posted to the Customer Account
     2005-40-109
                   Data Engine
                   Fiscal Year 2005 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
     2005-40-112   Requested to Extend the Assessment Statute (Taxpayer Rights and Entitlements: 82 taxpayers that may
                   not have been properly notified of their rights)
                   Mid-range Computer Storage Resources Need Better Administration to Ensure Effective and Efficient
     2005-20-098   Utilization and Accurate Reporting (Funds Put to Better Use: $9,858,060; Inefficient Use of Resources:
                   $766,765)
                   Processing Changes Would Improve Service and Reduce Unnecessary Interest Paid on Refunds to
     2005-40-111   Taxpayers That File Amended Individual Income Tax Returns (Funds Put to Better Use: $3,085,185;
                   Taxpayer Burden: 144,524 taxpayers with case closing delays)
     2005-40-110   The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured
                   A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft (Increased Revenue:
     2005-40-106   $9 billion; Inefficient Use of Resources: $8.5 million) Note: monetary benefit projected over a five-year
                   period.
                   Compliance Opportunities Exist for the Internal Revenue Service to Use Foreign Source Income Data
     2005-30-101   (Increased Revenue: $844.6 million) Note: $842 million of the monetary benefit was projected over a
                   five-year period.
                                                     August 2005
                   Voucher Audit of the Treasury Information Processing Support Services Contract – TIRNO-00-D-00015
     2005-10-124
                   (Questioned Costs: $370,071)
     2005-20-102   Annual Assessment of the Business Systems Modernization Program
                   Additional Actions Are Needed to Ensure Section 527 Political Organizations Publicly Disclose Their
     2005-10-125
                   Activities Timely and Completely (Increased Revenue: $17 million)
     2005-30-126   Additional Work Is Needed to Determine the Extent of Employment Tax Underreporting
                   The Small Business/Self-Employed Division Is Beginning to Address Challenges That Affect Corporate
     2005-30-130
                   Return Examination Coverage
     2005-30-123   The Strategy to Reemphasize Penalties in Corporate Examinations Could Be Enhanced
                   Controls Over the Financial Activities of the Internal Revenue Service Oversight Board Need to Be
     2005-10-135   Improved (Reliability of Information: $279,000 in budgeted expenditures were not properly classified or
                   recorded)
                   Opportunities Exist for the Employee Plans Function to Improve the Timeliness and Accuracy of Merit
     2005-10-127
                   Closure Determination Letters
                   Opportunities Exist to Improve the Efforts of the Taxpayer Education and Communication Organization
     2005-30-132
                   to Assist Small Businesses in Understanding and Fulfilling Their Tax Obligations
                   Security Controls Were Not Adequately Considered in the Development and Integration Phases of
     2005-20-128
                   Modernization Systems
                   Administration of the Earned Income Tax Credit Program Has Improved, but Challenges Continue
     2005-40-133




April 1, 2005 to September 30, 2005                                                                                            57
                                                  September 2005
                   Controls Over the Processing of the Mortgage Interest Credit Need to Be Improved (Revenue Protection:
     2005-40-137
                   $6.48 million)
                   The Office of Appeals Should Strengthen and Reinforce Procedures for Collection Due Process Cases
                   (Revenue Protection: 154 cases in which the collection statue date was not recalculated; Taxpayer Rights
     2005-10-138
                   and Entitlements: 8,678 Collection Due Process cases that could not be located or did not contain
                   required documentation)
                   Improved Internal Revenue Service Coordination Is Needed to Resolve Large Volumes of Fraudulent
     2005-30-140
                   Schedule C Refund Returns
                   Federal Tax Deposit Penalties Have Been Significantly Reduced, but Additional Steps Could Further
     2005-30-136   Reduce Avoidable Penalty Assessments (Taxpayer Rights and Entitlements: 12,494 taxpayers can save
                   $270 million in Failure to Deposit Penalties)
                   Customer Accuracy at Taxpayer Assistance Centers Showed Little Improvement During the 2005 Filing
     2005-40-146   Season (Taxpayer Burden: 42 taxpayers could have received incorrect responses to their tax law
                   questions)
                   Voucher Audit of the Treasury Information Processing Support Services Contract – TIRNO-00-D-00013
     2005-10-145
                   (Questioned Costs: $1,809)
                   Coordination and Monitoring Are Needed for Continued Improvement in the Tax Return Preparation
     2005-40-147
                   Process at the Taxpayer Assistance Centers
     2005-1C-113   Report on Labor Cost Charging and Allocation
     2005-10-141   The Overall Independence of the Office of Appeals Appears to Be Sufficient
                   Incurred Costs Audit for Fiscal Year 2000 TIRNO-92-C-00014, TIRNO-92-C-0014, TIRNO-99-R-0009,
     2005-1C-114
                   TIRNO-99-D-0001, and TIR-92-0014
     2005-40-152   Electronic Tax Law Assistance Program Responses Are Timely and Generally Accurate
     2005-1C-115   Incurred Costs Audit for Fiscal Year Ending September 30, 2002
     2005-1C-116   Report on Audit of Billing System
                   Report on Audit of Forward Pricing Indirect Rates and Facility Capital Cost of Money Factors for
     2005-1C-117
                   Fiscal Years 2005, 2006, and 2007
     2005-1C-118   Preaward Survey of Prospective Contractor’s Accounting System
     2005-1C-119   Report on Review of Fiscal Year 2002 Incurred Costs
                   Report on Audit of Compliance With Cost Accounting Standard 414 – Accounting for Cost of Money As
     2005-1C-120
                   an Element of the Cost of Facilities Capital
     2005-10-149   The Internal Revenue Service Does Not Adequately Assess the Effectiveness of Its Training
     2005-10-156   The Private Debt Collection Request for Quotation Outlines Adequate Procedures and Controls
     2005-20-103   Controls Need to Be Strengthened to Ensure the Modernized e-File Project Meets Its Expectations
                   The Department of the Treasury Needs to Improve Its Management of Employee Express System Funds
     2005-10-153
                   (Funds Put to Better Use: $1,688,771)
                   Progress Has Been Made but Further Improvements Are Needed in the Administration of the Low
     2005-10-129   Income Taxpayer Clinic Grant Program (Protection of Resources: $667,800 in grants awarded to
                   organizations that were not in compliance with Federal tax requirements.)
                   Taxpayers Continued to Experience Improved Access to Toll-Free Telephone Service During the
     2005-40-155
                   2005 Filing Season
                   Fiscal Year 2005 Statutory Audit of Compliance With Legal Guidelines Restricting the Use of Records
     2005-40-157
                   of Tax Enforcement Results
                   The Collection Field Function Needs to Improve Case Actions to Prevent Employers From Incurring
     2005-30-142
                   Additional Trust Fund Tax Liabilities (Increased Revenue: $430 million)
     2005-30-151   The Pre-Filing Agreement Program for Large Businesses Has Yielded Modest Results
                   A Better Model Is Needed to Project the Return on Additional Investments in Tax Enforcement
     2005-10-159   (Reliability of Information: difference of $182 million in projected revenues due to a more accurate
                   forecasting model)




58                                                                                   April 1, 2005 to September 30, 2005
                   More Effective Procedures Are Needed to Process Taxpayers’ Claims That They Did Not Request
     2005-30-131
                   Employer Identification Numbers Assigned to Them
                   Collection Field Function Penalty Abatements Need Proper Documentation and Coding (Increased
     2005-30-139
                   Revenue: $10.8 million for 7,315 abatements; Reliability of Information: 46 incorrectly coded abatements)
                   Actions Are Needed to Ensure Corporations Receive Intended Tax Benefits for Reinvesting Foreign
     2005-30-150
                   Earnings in the United States
     2005-1C-121   Report on Audit of Budget System Review
     2005-1C-122   Revised Fiscal Year 2005 Forward Pricing Proposal
     2005-1C-167   Report on Preaward Survey of Prospective Contractor’s Accounting System
     2005-1C-168   Report on Audit of Billing System Internal Controls
     2005-1C-172   Report on Accounting System Review
                   Report on Audit of Cost Accounting Standards 420, Accounting for Independent Research and
     2005-1C-174
                   Development Costs and Bid and Proposal Costs
                   Information From State Tax Amnesty Programs Could Bolster Compliance Efforts and Ensure Federal
     2005-30-165
                   Tax Obligations Are Also Met
                   Voucher Audit of the Integration Support Contract – TIRNO-92-C-00014 (Questioned Costs:
     2005-10-162
                   $2.4 million)
                   The Indian Tribal Governments Office Can Improve the Effectiveness, Consistency, and Efficiency of
     2005-10-158   Compliance Checks (Reliability of Information: five cases erroneously included in the count of
                   completed compliance checks)
                   The Tax Exempt and Governments Entities Division’s Toll-Free Call Site Accuracy Rate and the
                   Effectiveness and Efficiency of Call Site Operations Can Be Improved (Reliability of Information: the
     2005-10-166
                   customer accuracy rate was overstated by 6.13 percent; Taxpayer Burden: 4,655 taxpayers could have
                   received enhanced customer service if assistors more closely followed published guidance)
                   Payments Made at the Taxpayer Assistance Centers Are Generally Timely and Accurately Processed
                   (Taxpayer Privacy and Security: 93 accounts accessed by employees that received the taxpayers’
     2005-40-148
                   payments; Protection of Resources: 219 payments totaling more than $5.7 million that contained at least
                   one error)
                   The Clarity of Math Error Notices Has Improved, but Further Changes Could Enhance Notice Clarity and
     2005-30-154   Reduce Unnecessary Notices (Taxpayer Rights and Entitlements: the clarity of approximately 2.3 million
                   notices could be enhanced)
                   The Internal Revenue Service Needs to Do More to Stop the Millions of Dollars in Fraudulent Refunds
     2005-10-164
                   Paid to Prisoners
     2005-1C-169   Report on Audit of Forward Pricing Indirect Rates for Fiscal Years 2005 Through 2008
                   Report on Audit of Compliance With Cost Accounting Standard 403, Allocation of Home Office
     2005-1C-170
                   Expenses
     2005-1C-171   Report on Audit of Compliance With Cost Accounting Standard 404, Capitalization of Tangible Assets
     2005-1C-173   Report on Audit of Budget System Review
                   TIRNO-99-D-0005, Report on Compliance With Requirements Applicable to Major Programs and on
     2005-1C-175   Internal Control Over Compliance in Accordance With the Office of Management and Budget
                   Circular A-133, Fiscal Year 2004 (Questioned Costs: $91,837)
                   Report on the Audit of Adequacy and Compliance of Disclosure Statement Revision 15,
     2005-1C-176
                   Effective January 1, 2005
     2005-1C-177   Final Voucher Audit Contract Number TIRNO-95-D-00061, Delivery Order Number 0011
                   Report on the Audit of Adequacy and Compliance of Disclosure Statement Revision Number 4,
     2005-1C-178
                   Effective January 1, 2005
     2005-1C-179   Final Voucher Audit Contract Number TIRNO-95-D-00061, Delivery Order Number 0006
     2005-1C-180   Final Voucher Audit Contract Number TIRNO-95-D-00061, Delivery Order Number 0002
     2005-1C-181   Final Voucher Audit Contract Number TIRNO-95-D-00061, Delivery Order Number 0001
     2005-20-185   Monitoring of PRIME Contactor Access to Networks and Data Needs to Be Improved




April 1, 2005 to September 30, 2005                                                                                            59
                   The Computer Security Incident Response Center Is Operating As Intended, Although Some
     2005-20-143
                   Enhancements Can Be Made
     2005-20-144   Internal Penetration Test of the Internal Revenue Service’s Networked Computer Systems
                   The Indian Tribal Governments Office Should Reevaluate the Compliance Check Program to Make the
     2005-10-160
                   Best Use of Its Limited Resources
                   The Tax Exempt and Government Entities Division Is Making Progress to Detect and Deter Fraud Within
     2005-10-161
                   Its Customer Base, but the Impact Cannot Be Determined at This Time
                   Weaknesses in the Criminal Investigation Function’s Controls Leave Investigative Equipment Vulnerable
                   to Loss (Protection of Resources: controls over $383,400 in investigative equipment and 111 pocket
     2005-10-163
                   commissions were not adequate; Reliability of Information: 279 investigative equipment items not
                   controlled or inaccurately shown on the Criminal Investigation Equipment Control System.)
                   The Initial Implementation of the End User Access System Was Not Effectively Planned and the
     2005-10-182
                   Continued Implementation Needs to Ensure the Efficient Use of Resources
     2005-10-183   The Planning and Implementation of Changes to the Recruiting and Hiring Process Could Be Improved
     2005-20-184   Increased IRS Oversight of State Agencies Is Needed to Ensure Federal Tax Information Is Protected
                   Statistical Portrayal of the Tax Exempt Bonds Office’s Enforcement Activities From Fiscal Year 2002
     2005-10-186
                   Through Fiscal Year 2004
                   Contracting for Information Technology Goods and Services Generally Provided Intended Benefits;
     2005-20-187
                   However, Maintenance Contracts Were Not Always Supported




60                                                                                April 1, 2005 to September 30, 2005
                                              Appendix III
                                        TIGTA’s Statutory
                                  Reporting Requirements




      TIGTA issued 29 audit reports required by statute dealing with the adequacy and security of IRS
      technology during this reporting period. In FY 2005, TIGTA completed its seventh round of statutory
      reviews that are required annually by the Internal Revenue Service Restructuring and Reform Act of 1998
      (RRA 98). TIGTA also completed an annual review of the Federal Financial Management Improvement
      Act of 1996 (FFMIA). The following table reflects the status of the FY 2005 statutory reviews.



            Reference to                Explanation of the
                                                                                Comments/TIGTA Audit Status
         Statutory Coverage                 Provision

      Enforcement Statistics           Requires TIGTA to               Reference No. 2005-40-157, September 2005
                                       evaluate the IRS’               IRS managers had appropriately not used records of tax
      Internal Revenue Code (I.R.C.)   compliance with                 enforcement results or production quotas or goals to evaluate
      § 7803(d)(1)(A)(i)               restrictions under section      manager performance for the Section 1204 first-line
                                       1204 of RRA 98 on the use       managers TIGTA statistically sampled. In October 2004, the
                                       of enforcement statistics to    IRS discontinued the waiver process which eliminated the
                                       evaluate IRS employees.         control that had been established to ensure all Section 1204
                                                                       managers required to conduct quarterly self-certifications
                                                                       were accurately identified and monitored.

      Restrictions on Directly         Requires TIGTA to               Reference No. 2005-40-040, February 2005
      Contacting Taxpayers             evaluate the IRS’               As in prior reviews, TIGTA could not determine whether
                                       compliance with restrictions    IRS employees followed proper procedures to stop an
      I.R.C.                           under I.R.C. § 7521 on          interview if the taxpayer requested to consult with a
      § 7803(d)(1)(A)(ii)              directly contacting taxpayers   representative. Neither TIGTA nor the IRS could readily
                                       who have indicated they         identify cases where a taxpayer requested a representative or
                                       prefer their representatives    the IRS contacted the taxpayer directly and bypassed the
                                       be contacted.                   representative. IRS management information systems do not
                                                                       separately record or monitor direct contact requirements, and
                                                                       Congress has not explicitly required the IRS to do so.
                                                                       TIGTA does not recommend the creation of a separate
                                                                       tracking system.




April 1, 2005 to September 30, 2005                                                                                                    61
           Reference to               Explanation of the
                                                                             Comments/TIGTA Audit Status
        Statutory Coverage                Provision

     Filing of a Notice of Lien      Requires TIGTA to              Reference No. 2005-30-095, June 2005
                                     evaluate the IRS’              The IRS did not completely comply with the law. A review
     I.R.C.                          compliance with required       of a statistically valid sample of 150 cases identified seven
     § 7803(d)(1)(A)(iii)            procedures under I.R.C.        for which the IRS correctly mailed the lien notices, but did
                                     § 6320 upon the filing of a    not mail them timely within five business days, as required
                                     notice of lien.                by I.R.C. § 6320. In addition, for another 35 cases, TIGTA
                                                                    could not determine if the IRS complied with the law
                                                                    because it did not provide proof or legible proof of timely
                                                                    mailing. Finally, in 11 of the 150 cases reviewed, the IRS
                                                                    did not follow its own internal guidelines when issuing lien
                                                                    notices, including the guidelines for notifying taxpayer
                                                                    representatives and resending notices when they are returned
                                                                    as undeliverable.

     Extensions of the Statute of    Requires TIGTA to include      Reference No. 2005-40-112, July 2005
     Limitations for Assessment      information regarding          There was not always documentation in the related case files
     of Tax                          extensions of the statute of   that taxpayers were advised of their rights regarding
                                     limitations for assessment     assessment statute extensions. In TIGTA’s sample of
     I.R.C.                          of tax under I.R.C. § 6501     215 tax returns, 38 percent of the related case files reviewed
     § 7803(d)(1)(C)                 and the provision of notice    did not contain any documentation to support that the
                                     to taxpayers regarding the     taxpayers and/or their representatives had been advised of
     I.R.C.                          right to refuse or limit the   the taxpayers’ rights regarding assessment statute extensions.
     § 6501(c)(4)(B)                 extension to particular        In Calendar Year 2004, the IRS began revising the various
                                     issues or a particular         consent forms to include a prominent statement informing
                                     period of time.                taxpayers of their rights regarding assessment statute
                                                                    extensions.

     Levies                          Requires TIGTA to              Reference No. 2005-30-072, June 2005
                                     evaluate the IRS’              The IRS has effective controls over the issuance of
     I.R.C.                          compliance with required       systemically generated and manually prepared levies in both
     § 7803(d)(1)(A)(iv)             procedures under I.R.C.        the Automated Collection System and the Integrated Case
                                     § 6330 regarding levies.       Processing System to prevent a levy from being generated
                                                                    unless there were at least 30 days between the date taxpayers
                                                                    received notice of their appeal rights and the date of the
                                                                    proposed levy. A review of 60 systemically generated levies
                                                                    and 61 manually prepared levies showed that taxpayers
                                                                    received notification of their appeal rights at least 30 days
                                                                    prior to the levy.

     Collection Due Process          Requires TIGTA to              Reference No. 2005-10-138, September 2005
                                     evaluate the IRS’              A significant portion of the Appeals Collection Due Process
     I.R.C.                          compliance with required       and Equivalent Hearing closed case files requested could not
     § 7803(d)(1)(A)(iii) and (iv)   procedures under I.R.C.        be located or did not contain sufficient documentation. As
                                     §§ 6320 and 6330 regarding     such, TIGTA could not determine if the IRS complied with
                                     the taxpayers’ rights to       legal guidelines and required procedures to protect taxpayer
                                     appeal lien or levy actions.   rights. Moreover, some Appeals determination letters did
                                                                    not contain clear and detailed explanations of the basis for
                                                                    the hearing officers’ decisions and did not adequately
                                                                    communicate the results of the hearings to taxpayers. Some
                                                                    determination letters did not address the specific issues raised
                                                                    or tax periods discussed by the taxpayers in their hearing
                                                                    requests.




62                                                                                       April 1, 2005 to September 30, 2005
             Reference to                 Explanation of the
                                                                              Comments/TIGTA Audit Status
          Statutory Coverage                  Provision

       Seizures                          Requires TIGTA to           Reference No. 2005-30-091, June 2005
                                         evaluate the IRS’           The IRS did not always comply with the legal provisions and
       I.R.C.                            compliance with required    internal procedures when conducting seizures. A review of a
       § 7803(d)(1)(A)(iv)               procedures under I.R.C.     random sample of 50 of 375 seizures conducted between
                                         §§ 6330 through 6344 when   July 1, 2003 and June 30, 2004, identified 17 instances in
                                         conducting seizures.        12 of the seizures in which the IRS did not fully comply with
                                                                     the I.R.C. While the review did not identify any instances
                                                                     where taxpayers were adversely affected, not following legal
                                                                     and internal guidelines could result in abuses of taxpayers’
                                                                     rights.

                                                                     In addition, there were three areas where internal guidelines
                                                                     for conducting seizures can be improved to help prevent
                                                                     possible abuses of taxpayers’ rights. First, the Internal
                                                                     Revenue Manual (IRM) does not provide specific guidelines
                                                                     to address instances where additional property is identified
                                                                     for seizure while the authorized seizure is being conducted.
                                                                     In two instances, the seizure requests were made for a
                                                                     specific piece of property and approvals were granted.
                                                                     However, during the seizures, additional properties not
                                                                     included in the seizure requests were also seized. Second,
                                                                     the IRS’ policy of limiting the minimum bid of seized
                                                                     property to no more than the taxpayer’s tax liability plus the
                                                                     estimated expenses of the seizure and sale does not provide
                                                                     for the equitable preservation of the taxpayer’s interest in the
                                                                     seized property. In two seizures, the minimum bids were
                                                                     established at the amount of the taxpayers’ liabilities plus
                                                                     expenses, which were less than the calculated minimum bids
                                                                     using the standard formula by approximately $16,200 and
                                                                     $1,400. Finally, the IRM procedures are unclear with respect
                                                                     to charging the taxpayer’s account for expenses incurred in
                                                                     obtaining title searches and encumbrance information
                                                                     reports. In two seizures, these types of expenses were
                                                                     charged to the taxpayers’ accounts. In another instance, the
                                                                     taxpayer’s account was not charged for all title searches
                                                                     conducted.

       Taxpayer Designations – Illegal   An evaluation of IRS’       Reference No. 2005-40-104, July 2005
       Tax Protester Designation and     compliance with             In general, the IRS is in compliance with the prohibition on
       Nonfiler Designation              restrictions under          using Illegal Tax Protester (ITP) or similar designations.
                                         section 3707 of RRA 98 on   The IRS has not reintroduced past ITP codes on the Master
       I.R.C.                            designation of taxpayers.   File and has not reassigned any similar ITP designations to
       § 7803(d)(1)(A)(v)                                            formerly coded ITP taxpayer accounts. Although some
                                                                     references remain, the IRS has initiated steps to remove ITP
                                                                     references from the multiple subsections of the Internal
                                                                     Revenue Manual. However, IRS employees continue to use
                                                                     ITP or similar designations in isolated instances in case
                                                                     narratives.




April 1, 2005 to September 30, 2005                                                                                                     63
           Reference to                  Explanation of the
                                                                                   Comments/TIGTA Audit Status
        Statutory Coverage                   Provision

     Disclosure of Collection           Requires TIGTA to review          Reference No. 2005-40-041, February 2005
     Activities With Respect to         and certify whether the IRS       This is the seventh year that TIGTA could not determine
     Joint Returns                      is complying with I.R.C.          whether the IRS is complying with the statutory
                                        § 6103(e)(8) to disclose          requirements for responding to written requests from joint
     I.R.C.                             information to an individual      filers, because both TIGTA and the IRS are still unable to
     § 7803(d)(1)(B)                    filing a joint return on          readily identify joint filer requests received nationwide. IRS
                                        collection activity involving     management has decided not to develop a new management
     I.R.C.                             the other individual filing the   control process to track joint filer requests. IRS management
     § 6103(e)(8)                       return.                           information systems do not separately record or monitor joint
                                                                          filer requests, and Congress has not explicitly required the
                                                                          IRS to do so. TIGTA does not recommend the creation of a
                                                                          separate tracking system.


     Taxpayer Complaints                Requires TIGTA to include         Statistical results on the number of taxpayer
                                        in each of its Semiannual         complaints received are shown on page 42.
     I.R.C.                             Reports to Congress the
     § 7803(d)(2)(A)                    number of taxpayer
                                        complaints received and the
                                        number of employee
                                        misconduct and taxpayer
                                        abuse allegations received
                                        by IRS or TIGTA from
                                        taxpayers, IRS employees
                                        and other sources.


     Administrative or Civil Actions    Requires TIGTA to include         Reference No. 2005-10-051, March 2005
     With Respect to the Fair Debt      information regarding any         There were no administrative or civil actions with respect
     Collection Practices Act of 1996   administrative or civil           to violations of fair tax collection practices in
                                        actions with respect to           Calendar Year 2004.
     I.R.C.                             violations of the fair debt
     § 7803(d)(1)(G)                    collection provision of
                                        I.R.C. § 6304, including a
     I.R.C.                             summary of such actions,
     § 6304                             and any resulting judgments
     Section 3466 of                    or awards granted.
     RRA 98

     Denial of Requests for             Requires TIGTA to include         Reference No. 2005-10-089, May 2005
     Information                        information regarding             In 7.1 percent of the Freedom of Information Act (FOIA)
                                        improper denial of requests       and Privacy Act of 1974 (PA) cases sampled, the IRS did not
     I.R.C.                             for information from the          provide complete responses and improperly withheld
     § 7803(d)(1)(F)                    IRS, based on a statistically     information from requestors. This represents a higher
                                        valid sample of the total         percentage of improper withholdings than reported in
     I.R.C.                             number of determinations          TIGTA’s FY 2004 audit report (4.4 percent). In addition, the
     § 7803(d)(3)(A)                    made by the IRS to deny           IRS improperly withheld information from requestors in
                                        written requests to disclose      3.1 percent of the I.R.C. § 6103 cases sampled where
                                        information to taxpayers on       information was denied or the IRS replied responsive records
                                        the basis of I.R.C. § 6103 or     were not available. This represents a significantly lower
                                        5 U.S.C. § 552(b)(7).             percentage of improper withholdings than the 14.6 percent
                                                                          reported last year. The percentage of untimely responses to
                                                                          FOIA and PA requestors also significantly decreased to 13.1
                                                                          percent of the cases in this year’s sample, as compared with
                                                                          the untimely rates in previous audit reports. In previous
                                                                          years’ audits, the percentage ranged from 20 to 43 percent.




64                                                                                            April 1, 2005 to September 30, 2005
             Reference to              Explanation of the
                                                                              Comments/TIGTA Audit Status
          Statutory Coverage               Provision

       Adequacy and Security of the   Requires TIGTA to evaluate     Information Technology Reviews:
       Technology of the IRS          the IRS’ adequacy and          Reference Number 2005-20-004, October 2004
                                      security of its technology.    Reference Number 2005-20-005, November 2004
       I.R.C.                                                        Reference Number 2005-20-014, December 2004
       § 7803(d)(1)(D)                                               Reference Number 2005-20-019, December 2004
                                                                     Reference Number 2005-20-023, January 2005
                                                                     Reference Number 2005-20-028, February 2005
                                                                     Reference Number 2005-20-050, March 2005
                                                                     Reference Number 2005-20-071, April 2005
                                                                     Reference Number 2005-20-074, April 2005
                                                                     Reference Number 2005-20-061, May 2005
                                                                     Reference Number 2005-20-083, May 2005
                                                                     Reference Number 2005-20-098, July 2005
                                                                     Reference Number 2005-20-102, August 2005
                                                                     Reference Number 2005-20-103, September 2005
                                                                     Reference Number 2005-20-187, September 2005

                                                                     Security Reviews:
                                                                     Reference Number 2005-20-027, January 2005
                                                                     Reference Number 2005-20-036, February 2005
                                                                     Reference Number 2005-20-038, February 2005
                                                                     Reference Number 2005-20-024, March 2005
                                                                     Reference Number 2005-20-042, March 2005
                                                                     Reference Number 2005-20-069, March 2005
                                                                     Reference Number 2005-20-097, July 2005
                                                                     Reference Number 2005-20-100, July 2005
                                                                     Reference Number 2005-20-108, July 2005
                                                                     Reference Number 2005-20-128, August 2005
                                                                     Reference Number 2005-20-143, September 2005
                                                                     Reference Number 2005-20-144, September 2005
                                                                     Reference Number 2005-20-184, September 2005
                                                                     Reference Number 2005-20-185, September 2005

       Federal Financial Management   Requires TIGTA to evaluate     Reference No. 2005-10-068, March 2005
       Improvement Act of 1996        the financial management       TIGTA reviewed the IRS’ remediation plan and identified
                                      systems to ensure              that one intermediate target date was missed and six dates
       31 U.S.C. § 3512               compliance with Federal        were extended. These delays could further hinder the IRS’
                                      requirements, or               ability to timely resolve the reported issues that cause its
                                      establishment of a             noncompliance with the FFMIA.
                                      remediation plan with
                                      resources, remedies, and       TIGTA also identified that 45 remedial actions were
                                      intermediate target dates to   canceled prior to completion in 2004. Most of the canceled
                                      bring the IRS into             actions were related to critical future releases of the
                                      substantial compliance.        Integrated Financial System and Custodial Accounting
                                                                     Project, both of which are key financial management
                                                                     projects. The IRS reported this action was taken because
                                                                     both projects were significantly behind schedule and faced
                                                                     funding shortfalls. The canceled remedial actions were
                                                                     replaced by two placeholder remedial actions to develop new
                                                                     plans. Until the IRS develops new remediation actions and
                                                                     milestones to replace these placeholders, TIGTA will be
                                                                     unable to reliably assess the IRS’ progress in resolving many
                                                                     of the significant issues that cause its noncompliance with
                                                                     the FFMIA.




April 1, 2005 to September 30, 2005                                                                                                  65
          "There is nothing sinister
         in so arranging one's affairs
      as to keep taxes as low as possible.
              Everybody does so,
                rich and poor;
               and all do right,
      for nobody owes any public duty
     to pay more than the law demands."




               Learned Hand




66                                       April 1, 2005 to September 30, 2005
                                                    Appendix IV
                                   S e c t i o n 1203 S t a n d a r d s
     In general, the Commissioner of Internal Revenue          •   Violating the Internal Revenue Code of 1986,
     shall terminate the employment of any IRS                     Treasury regulations, or policies of the IRS
     employee if there is a final administrative or judicial       (including the Internal Revenue Manual) for the
     determination that, in the performance of official            purpose of retaliating against, or harassing a
     duties, such employee committed any misconduct                taxpayer, taxpayer representative, or other
     violations outlined below. Such termination shall             employee of the IRS;
     be a removal for cause on charges of misconduct.
                                                               •   Willfully misusing provisions of Section 6103
     Misconduct violations include:                                of the Internal Revenue Code of 1986 for the
                                                                   purpose of concealing information from a
     •   Willful failure to obtain the required approval           Congressional inquiry;
         signatures on documents authorizing the seizure
         of a taxpayer’s home, personal belongings, or         •   Willfully failing to file any return of tax
         business assets;                                          required under the Internal Revenue Code
                                                                   of 1986 on or before the date prescribed
     •   Providing a false statement under oath with               therefore (including any extensions), unless
         respect to a material matter involving a                  such failure is due to reasonable cause and not
         taxpayer or taxpayer representative;                      to willful neglect;
     •   Violating, with respect to a taxpayer, taxpayer       •   Willfully understating Federal tax liability,
         representative, or other employee of the IRS,             unless such understatement is due to reasonable
         any right under the Constitution of the United            cause and not to willful neglect; and,
         States, or any civil right established under Title
         VI or VII of the Civil Rights Act of 1964; Title      •   Threatening to audit a taxpayer for the purpose
         IX of the Education Amendments of 1972; Age               of extracting personal gain or benefit.
         Discrimination in Employment Act of 1967;
                                                               The Commissioner of Internal Revenue may
         Age Discrimination Act of 1975; Section 501
                                                               mitigate the penalty of removal for the
         or 504 of the Rehabilitation Act of 1973; or
                                                               misconduct violations outlined above. The
         Title I of the Americans with Disabilities Act
                                                               exercise of this authority shall be at the sole
         of 1990;
                                                               discretion of the Commissioner and may not be
     •   Falsifying or destroying documents to                 delegated to any other officer. The
         conceal mistakes made by any employee                 Commissioner, in his/her sole discretion,
         with respect to a matter involving a taxpayer         may establish a procedure that will be used
         or taxpayer representative;                           to determine whether an individual should
     •   Committing assault or battery on a taxpayer,          be referred to the Commissioner for
         taxpayer representative, or other employee            determination. Any mitigation determination
         of the IRS, but only if there is a criminal           by the Commissioner in these matters may
         conviction, or a final judgment by a court            not be appealed in any administrative or
         in a civil case, with respect to the assault          judicial proceeding.
         or battery;




April 1, 2005 to September 30, 2005                                                                                  67
     "The hardest thing in the world
             to understand
           is the income tax."




            Albert Einstein




68                                     April 1, 2005 to September 30, 2005
                                           Appendix V
                                 Data Tables Provided
                                            by the IRS
 The memorandum copied below is an IRS transmittal to TIGTA. The tables that follow the memorandum
 contain information exactly as provided by the IRS to TIGTA and consist of IRS employee misconduct
 reports from the IRS Automated Labor and Employee Relations Tracking System (ALERTS). Also, data
 concerning substantiated I.R.C. § 1203 allegations are included. IRS management conducted inquiries
 into the cases reflected in these tables.




April 1, 2005 to September 30, 2005                                                                    69
                                Report of Employee Misconduct for the Period
                                    April 01, 2005 to September 30, 2005
                                      Summary by Disposition Groups
                                         (Table provided by the IRS)


                                                                           Employee
                                    TIGTA        Administrative                               Background
          Disposition                                                      Tax Matter                                Total
                                  Investigations    Cases                                    Investigations
                                                                             Cases

      Removal                                   50                 114                  28                     3             195
      Separation of
      Probationary Employees                     2                 268                  14                    12             296
      Separation of Temporary
      Employees                                                       2                  4                     2              8
      Resignation/Retirement                    70                 206                  81                    23             380
      Suspensions                               71                 224                  96                     3             394
      Reprimands                               106                 469                 522                     6        1,103
      Counseling                                                   410                 760                    35        1,205
      Alternative Discipline                    12                   95                 40                     2             149
      Clearance                                120                 196                   6                                   322
      Closed Without Action                    279                 418                 175                   104             976
      Closed Without Action
      (Caution Statement)                      181                 167                  86                    68             502
      Forwarded to TIGTA                                             10                                                      10
      Suspended – Waiting
      Supplemental                               3                                                                             3
      Total                                    894               2,579               1,812                   258         5,543

     Source: Automated Labor and Employee Relations Tracking System (ALERTS)

     This report is being produced in accordance with 26 USC § 7803(d)(2) and § 4(a)2 of Treasury Delegation Order 115-01,
     January 14, 1999
     Extract Date: Sunday, October 02, 2005 Report ID = T1R3a




70                                                                                    April 1, 2005 to September 30, 2005
                                   Report of Employee Misconduct for the Period
                                       April 01, 2005 to September 30, 2005
                                                National Summary
                                            (Table provided by the IRS)


                                                                                            Cases Closed
                             Opening Conduct Cases                                                                    Closing
     Case Type                                                                                                Non-
                            Inventory  Received                              Conduct                                 Inventory
                                                                                                  Duplicates Conduct
                                                                              Issues
                                                                                                              Cases
TIGTA
Investigations ROI1                    654                       867                    (894)                 (10)              (0)                 617

Administrative
Case2                                1,234                    2,569                   (2,579)                 (26)              (5)                1,193

Employee Tax
Compliance Case3                     1,301                    1,826                   (1,812)                 (93)              (0)                1,222

Background
Investigations4                        114                       305                    (258)                  (0)              (0)                 161

Total                                3,303                    5,567                   (5,543)               (129)               (5)                3,193

Source: Automated Labor and Employee Relations Tracking System (ALERTS)

This report is being produced in accordance with 26 USC § 7803(d)(2) and § 4(a)2 of Treasury Delegation Order 115-01,
January 14, 1999
Extract Date: Sunday, October 02, 2005        Report ID = T1R1




1
  TIGTA Investigations (ROI) - Any matter involving an employee in which TIGTA conducted an investigation into alleged misconduct and referred a
  Report of Investigation (ROI) to IRS for appropriate action.
2
  Administrative Case - Any matter involving an employee in which management conducted an inquiry into alleged misconduct.
3
  Employee Tax Compliance Case - Any conduct matter that is identified by the Employee Tax Compliance program which becomes a matter of official
  interest.
4
  Background Investigations - Any matter involving an NBIC investigation into an employee’s background that is referred to management for
  appropriate action.




    April 1, 2005 to September 30, 2005                                                                                                                    71
                                 Summary of Substantiated I.R.C. § 1203 Allegations
                                      Recorded in ALERTS for the Period
                                      April 01, 2005 to September 30, 2005
                                           (Table provided by the IRS)



                                                                        Removed               In
           § 1203                               1   Resigned/ Probation          Penalty
                                Removals                                On Other           Personnel                                               Total
          Violation                                  Retired Separation          Mitigated
                                                                        Grounds             Process

     Seizure
     Without
     Approval                                   0                 1                     0                  0                  0                0       1
     False
     Statement
     Under Oath                                 0                 0                     0                  0                  0                1       1
     Constitutional
     & Civil Rights
     Issues                                     0                 0                     0                  0                  0                0       0
     Falsifying or
     Destroying
     Records                                    0                 0                     0                  0                  0                0       0
     Assault or
     Battery                                    0                 0                     0                  0                  0                0       0
     Retaliate or
     Harass                                     0                 0                     0                  0                  0                0       0
     Misuse of
     §6103                                      0                 0                     0                  0                  0                0       0
     Failure to File
     Federal Tax
     Return                                   17                  5                     1                  3                 46               29     101
     Understatement
     of Federal Tax
     Liability                                10                  1                     0                  3                 25               23      62
     Threat to Audit
     for Personal
     Gain                                       1                 0                     0                  0                  0                1       2
     Totals                                   28                  7                     1                  6                 71               54     167

     Source: Automated Labor and Employee Relations Tracking System (ALERTS) and § 1203 Review Board
     records.
     Extract Date: Sunday, October 2, 2005



     1
         The cases reported as “Removals” and “Penalty Mitigated” (see columns above) do not reflect the results of any third party appeal.




72                                                                                                        April 1, 2005 to September 30, 2005
